<html>
<title> - WISCONSIN: CONDUCT OF ELECTIONS AND PROPOSALS FOR REFORM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




      HEARING ON THE CONDUCT OF ELECTIONS AND PROPOSALS FOR REFORM

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

         HEARING HELD IN MILWAUKEE, WISCONSIN, OCTOBER 24, 2005

                               __________


      Printed for the Use of the Committee on House Administration





                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

26-272                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001











                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California
CANDICE MILLER, Michigan               Ranking Minority Member
JOHN T. DOOLITTLE, California        ROBERT A. BRADY, Pennsylvania
THOMAS M. REYNOLDS, New York         ZOE LOFGREN, California

                           Professional Staff

                     Paul Vinovich, Staff Director
                George Shevlin, Minority Staff Director







 
        WISCONSIN: CONDUCT OF ELECTIONS AND PROPOSALS FOR REFORM

                              ----------                              


                        MONDAY, OCTOBER 24, 2005

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9 a.m., in the 
Milwaukee Federal Building and Courthouse, 517 East Wisconsin 
Avenue, Room 225, Milwaukee, Wisconsin, Hon. Robert W. Ney 
[chairman of the committee] Presiding.
    Present: Representatives Ney, Ehlers, and Moore.
    Also Present: Representative Green.
    Staff Present: For Representative Ney: Paul Vinovich, Karen 
Christian, Audrey Perry, Donald Zelaya, and Patrick Sweeney.
    For Representative Ehlers: Ben Gielow.
    For Representative Millender-McDonald: George Shevlin and 
Thomas Hicks.
    For Representative Moore: Winfield A. Boerckel, Jr., 
Kathleen Mulligan-Hansel, and Shirley Ellis.
    Mr. Ney. The Committee will come to order and I would ask 
that the first panelists, we have two members for the first 
panel, please feel free to come up and join us.
    The Committee is meeting here today in Milwaukee, 
Wisconsin, to take a look back at how the 2004 election was 
conducted in Wisconsin and hear about proposals for the reform.
    Today's hearing follows previous hearings this Committee 
has held in both Washington, DC and in my home state of Ohio, 
Columbus, Ohio, on election issues.
    With the January 1, 2006, deadline for compliance with the 
Help America Vote Act, of which I was the main author along 
with Carson and Steny Hoyer, who authored on the Democrat side 
along with quite a lot of members to pass the Help America Vote 
Act known as HAVA, we are working with different groups from 
across the country to complete that act. The last phase of it 
in 2006 will be kicking in on January 1.
    While some in the media and others have brought a lot of 
attention to the 2004 election cycle in my home state of Ohio, 
as you know, Ohio was basically the most scrutinized state in 
the nation. We went there to look at some of the discussions of 
whether the Help America Vote Act worked correctly, what 
happened in Ohio, and we found some other things applied to the 
act and some didn't. Frankly, some are local issues and state 
issues.
    But a lot of attention was brought in the 2004 election in 
my home state. There is substantial evidence of some voting 
irregularities in Wisconsin in 2004 that were brought to our 
attention. The attention given to Ohio's problems was curious 
given the margin of victory was 10 times what it was in the 
state of Wisconsin.
    While some may not want to admit it, election problems are 
not limited only to the states won by Republicans. They can 
also occur in states won by Democrats. So, although Ohio is a 
focus, we have several states across the nation that we can 
look at and learn from.
    During the course of this hearing, we hope to learn more 
about what went wrong during the most recent election cycle and 
how elections can be improved in Wisconsin and the United 
States. By gaining a greater understanding of what happened, we 
will be able to ensure the effective administration and 
successful operation of Wisconsin elections and the United 
States elections in the future.
    Issues debated in Wisconsin are also being debated at the 
national level, and it will be particularly constructive for 
this Committee to learn what is happening here.
    Today we have with us members of our Committee, the House 
Administration Committee, and I would note and we will turn our 
attention to a statement by our ranking member, Juanita 
Millender-McDonald of California, and she passes her regrets 
today that she could not be here due to a commitment that she 
has. But she has a great interest in this issue as we are 
responding and working with our ranking member, Congresswoman 
Juanita Millender-McDonald.
    Also a regular member of the Committee is Congressman Vern 
Ehlers of Michigan to my right. Congressman Ehlers served on 
the Committee for the past 10 years that I have been in the 
House, and also, a member in her own right, Congresswoman Moore 
filling in our for ranking member, Juanita Millender-McDonald. 
Thank you for having us from your state.
    And also, at the far end of the table, Congressman Green, 
who had requested of me to have this hearing here in Wisconsin. 
We thank him for asking us to be here in your state and for 
initiating this hearing.
    Witnesses, I want to clarify for the record because I had a 
call from a newspaper out here, and there was a question about 
witnesses. At one point in time there were witnesses submitted 
to us by the minority, but then they requested witnesses, and 
we put the witnesses here so I just wanted to clarify you can't 
always believe what you read in the newspapers. But in this 
case, I wanted to clarify that we accepted the witnesses so 
there are witnesses by both the minority and majority, which is 
the way it should be.
    The two witnesses contacted by us were not able to attend. 
The United States Department of Justice declined our invitation 
citing ongoing investigations into the joint task force report, 
and also Janice Mueller of the Legislative Audit Bureau was 
invited, but respectfully declined. But we'll have other people 
who can testify again for results and views of the election.
    And again, with Congressman Green, we welcome him and thank 
him for having us here in your state, in your great state. This 
again is not the first of the hearings we have had and I 
predict it won't be the last.
    Our door is always open in Washington. Behind us are staff 
of House Administration, majority, minority. We are always 
willing as we work through HAVA and other bills to listen to 
the concerns across the United States and input on elections on 
how people think that it can be made better.
    Full press makes it easier to vote and harder to cheat. 
Everybody can agree on that.
    Each hearing that we have helps to advance our 
understanding of what problems exist in our election system and 
how best to solve them. I look forward to hearing from all the 
witnesses, and I will yield to Congresswoman Moore who is here 
on behalf of our ranking member.
    Before I do, just a technical piece of business, I would 
like to advise people in the audience today that cellular 
phones, pagers, and other electronic equipment should be 
silenced from interrupting the proceedings.
    Also, we welcome you in the audience that are here today. 
This will be an official meeting of the Congressional Committee 
of the U.S. House of Representatives House Administration 
Committee, and so it is governed today by the rules of House of 
Representatives, and these rules give the Committee Chair the 
power to maintain order and decorum.
    Pursuant to that, disruptive people in the audience who 
interfere with the conduct of the Committee's business will be 
removed. We ask that you not either boo or applaud depending on 
the mood that betakes you if someone says something.
    I don't know if I have the same type of control of members 
as I do the audience. And with that, without objection I would 
ask that both members who are not members of this Committee, 
Congresswoman Moore and Congressman Green without objection be 
allowed to participate as full members.
    Ms. Moore. I absolutely want to thank Chairman Ney and 
appreciate his courtesy for allowing me to sit with these 
distinguished members of the House Administration Committee. As 
you well know, you were one of the first members of congress 
that I had the opportunity to meet when I was elected to 
Congress and the House Administration Committee continues to be 
a committee that really deals with matters and mostly 
bipartisan manner, and I am happy to welcome you here to 
Wisconsin, great place and a great lake.
    I--I am going to ask Mr. Chairman that we submit Ranking 
Member Juanita Millender-McDonald Congresswoman's opening 
statement for the record. I will read just a small portion of 
it.
    Mr. Ney. Without objection.

      STATEMENT OF THE HON. JUANITA MILLENDER-McDONALD, A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA, AS 
                READ BY CONGRESSWOMAN GWEN MOORE

    Ms. Moore. Thank you. I would like to--this is Ranking 
Member Millender McDonald's opening statement in part. I would 
like to thank the Chairman for holding this field hearing in 
Milwaukee, Wisconsin. However due to a prior commitment which 
cannot be rescheduled, I am unable to attend today's hearing. I 
hope we'll continue to hear dialogue on how the conduct of 
elections and review how the Help America Vote Act, HAVA, is 
being implemented. Today the committee will hear testimony on 
the conduct of elections in Wisconsin and proposals for reform.
    And without objection, I would like to submit her testimony 
for the record.
    Mr. Ney. Without objection.
    [The statement of Ms. Millender-McDonald follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
STATEMENT OF THE HON. GWEN MOORE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Ms. Moore. Mr. Chairman, I would like to take this 
opportunity to read my own opening statements, and I want to 
thank you again for that privilege. Being a freshman I never 
expected to be in the position of the Ranking Member, but you 
know, just can't hold a good woman down.
    Mr. Ney. Ranking Member from California wanted me to tell 
you just don't get too comfortable.
    Ms. Moore. That feels good. Since the 2004 elections, a 
number of task forces and special committees here in my state 
have reviewed how the election was conducted around the state 
and in Milwaukee.
    These bodies included the legislative counsel special 
committee on election law review which included county clerks, 
representative of Milwaukee County election commission, 
municipal clerks, election lawyers, and the executive director 
of our state election board, Mr. Kevin Kennedy, who will be 
testifying here today as well.
    Again, we had the City of Milwaukee election task force 
which looked closely at the conduct of the elections here in 
Milwaukee, the chair of which Ms. Sharon Robinson who is also 
in the audience and will testify this morning, and as you have 
mentioned Chairman Ney, the legislative audit bureau evaluation 
of voter registration issued this September, a very credible 
nonpartisan body in our state.
    Each of these bodies found what they believed to be the 
problems that needed to be solved; mainly administrative errors 
by poll workers and rules that need updating.
    So they have made a host of recommendations which include 
better training of poll workers, recommended changes to our 
current state elections procedures, rules and systems and 
perhaps most importantly the request for better funding for 
state and local elections. Agencies without--which the first 
two recommendations will never take place, the old mandate sort 
of argument, Mr. Chairman.
    You will find this call echoed in the written testimony of 
many of our witnesses here today, I would submit on both sides. 
After looking closely at what happened here in our state, none 
of these state's local bodies recommended that every voter 
without a government issued photo ID be turned away at the 
polls. Perhaps this is because such a proposal would not solve 
the difficulties we faced last November 2nd.
    It seems to be a solution in search of a problem. And it 
has the potential to disenfranchise the thousands of people, 
the elderly, ethnic minority, and students.
    Just to illustrate, I would like to submit for the record, 
Mr. Chairman, a study by Professor John Peroserat (phonetic) 
that outlines just how many people in this state and in 
Milwaukee do not have a driver's licenses.
    In this state over 177,000 of seniors, an estimated 98,247 
Wisconsin residents age 35 through 64, and 47 percent of county 
African American adults and 43 percent of Hispanic adults in 
Milwaukee County do not have driver's licenses.
    Why focus on--why not focus on real solutions that solve 
our real difficulties with the elections here in Wisconsin and 
Milwaukee? Some recommendations like the statewide voter 
registration system is already in the process of being 
constructed as we speak, and I understand it may go a long way 
toward resolving a number of the discrepancies.
    Other recommendations by this body will require passage of 
laws through the state legislature.
    But then let's go and pass the consensus recommendations 
made by these experts who have looked closely at what went 
wrong, and then fund the recommended changes adequately and 
then see if it works.
    What we should not do is jump the gun with a proposal that 
does not address the problems identified by state and local 
experts and at the cost of disenfranchising so many elderly 
voters.
    Thank you, Mr. Chairman, and thank you for the courtesy, 
and I would ask my testimony as well be submitted for the 
record.
    Mr. Ney. Thank you for the statement. Without objection, 
the testimony and the additional materials will be submitted 
for the record.
    [The statement of Ms. Moore follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Ney. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.

  STATEMENT OF THE HON. VERNON J. EHLERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Ehlers. I am pleased to take a little hop across the 
lake to be in Milwaukee once again. I have not been here since 
August. And it is a beautiful downtown area, beautiful art 
museum. It is good to be back again.
    I was somewhat surprised for the reason for the visit 
because this has been a very well kept secret nationally that 
the election last year was as flawed as it was. All the 
attention focused on Ohio.
    And clearly if Ohio had gone the other way, all the 
attention would have focused on Wisconsin, and I think people 
in the state would have been very chagrinned to have all their 
faults exposed on national TV that occurred in Ohio and Florida 
five years ago.
    Clearly there is something wrong and I was surprised when 
reviewing the record. I have been involved in elections for 30 
years, I have served on this committee as long as I have been 
in Congress, and we have had to deal with a lot of flawed 
elections. The pattern is the same in almost every case.
    What I have not heard is the word fraud, which is what 
everyone really worries about. There are, of course, the honest 
mistakes that are made by poll workers who may not be properly 
trained, who only do the job twice a year and may have 
forgotten the procedures. That certainly can be handled with 
checklists, and I was surprised to find that there were not 
sufficient written instructions available for poll workers. 
That may be part of the problem.
    But poll workers are very--in my experience, very fine 
people, very dedicated people who come out to work in these 
elections very long hours, and do a difficult job dealing with 
the public that sometimes gets angry about waiting in line. So 
I am not in any way criticizing the poll workers.
    But clearly some things were wrong in the last election in 
Wisconsin and they should be corrected.
    I simply don't understand the argument that it is too 
difficult for individuals to get an ID card. In Michigan, we 
have had it for years. People ask for it. Simply because if 
they didn't have a driver's license, they have trouble cashing 
checks, they have trouble doing financial transactions, 
etcetera, and so for years in Michigan, we have issued at 
request state ID cards through the secretary of state's office 
exactly the same process as getting the driver's license except 
you don't take a test and you are not qualified to drive 
afterwards.
    I just think that the argument that it is too difficult for 
people to do just does not hold water. And whether or not 
Wisconsin decides to use an ID card for election purposes is 
besides the point. There is certainly no reason not to have ID 
cards available furnished by the state through the secretary of 
state's office.
    Michigan does it. A lot of other states do it upon request, 
and there is no difficulty.
    Some states, of course, do require the picture ID and I 
think it is a good idea. That may not have been the problem 
here, I don't know. But certainly it helps reduce fraud in 
elections, and fraud is what you have to worry about.
    Honest mistakes will always occur. Fraud is deliberate and 
planned, and you have to take every step you can to make 
certain that fraud does not occur. There is certainly evidence 
of some fraud occurring, perhaps not enough to have overturned 
any election, but there is certainly enough evidence that we 
should be concerned about it. There has been enough so that the 
people of Wisconsin should be concerned about it.
    With that, I give back.
    Mr. Ney. Thank you. The gentleman from Wisconsin, Mr. 
Green.

STATEMENT OF THE HON. MARK GREEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Green. Thank you for giving me the chance to testify 
this morning and thanks for coming to my home state.
    I join Representative Moore in welcoming you to Wisconsin 
and Milwaukee.
    Mr. Chairman, this area is famous for many things, we are 
the home of Harleys and beer and bratwurst and we are playing 
some pretty good basketball and baseball as well these days.
    Unfortunately we are also becoming known for election 
irregularities. These problems go back several election cycles 
breaking onto the national scene with the 2000 presidential 
election and the widely reported cigarettes for votes program 
and it carried over into the elections last fall.
    Out-of-date voter lists, fake names, invalid addresses, 
double, sometimes triple voting, ballots cast by convicted 
felons whose rights have not yet been legally restored. 
Unfortunately, the laundry list goes on and on.
    Mr. Chairman, that's one reason why I made the request some 
months ago that you came here today and I am so grateful that 
you have.
    In May, the Milwaukee Journal Sentinel reported an 
investigation that found almost 300 cases of felons voting 
illegally, at least 100 cases of double voting, 1200 votes from 
invalid addresses, and thousands more ballots cast than people 
reported as voting.
    A mutual friend and former colleague of all of ours, Mayor 
Tom Barrett, even reported that the folks he bought his house 
from six years ago were still on the voter rolls registered at 
that home address.
    Of course, these cases of irregularity are by no means 
exclusive to Milwaukee or Wisconsin. We all know unfortunately 
that they plague our election system in a number of places. But 
even if Milwaukee or Wisconsin were the only place with 
problems, it would still potentially hurt our democracy and 
people's faith in our system.
    When presidential elections come down to the outcome of one 
or two states as we have experienced for two presidential 
elections in a row, election problems don't just affect one 
state, they can affect the entire country and the future course 
of our country.
    Wisconsin as you noted was very nearly the deciding state 
last fall and even four years ago.
    Last year on a percentage basis, the outcome was closer in 
Wisconsin than any other state. Now, of course, there is no 
silver bullet to fixing our election problems, but there are 
measures that can make the process better, more reliable, and 
less subject to the fraud that we have seen far too often.
    Mr. Chairman, as this committee looks at ways to election 
challenges and restore people's faith in our system, I would 
ask that you consider legislation I offered some months ago and 
introduced, the Vote Act. I believe it is a broadly written 
response to many of the issues that you will hear about this 
morning.
    The Vote Act requires training for all poll workers and 
establishes a federal grant program to help states meet those 
training requirements. My bill also proposes changes to the 
registration system, increasing accountability and setting 
clear standards in all facets of voter registration.
    During voter registration drives, my bill enhances in our 
system by prohibiting felons from canvassing voters, and 
requiring that paid canvassers disclose the source of their 
pay.
    The Vote Act also ensures that investigations on voting 
complaints happens fast because we should not have to wait for 
a long drawn out process.
    In some ways the heart of the Vote Act is a photo ID 
requiring all voters to present a valid photo ID before casting 
a ballot. This requirement is one of the principal 
recommendations of the bipartisan Carter-Baker Commission.
    Requiring voters to show a government approved photo ID is 
the best way for us to protect the fundamental American 
principle of one man one vote. Every American has the sacred 
right to cast their vote, but only once. You have to show an ID 
to rent a movie at your local video store. In Wisconsin you 
even need one to buy certain cold medicines. With so much at 
stake in our elections, I don't think it is too much to require 
one for voting.
    I have listened carefully to concerns that a few have 
raised that some folks might have trouble paying for or 
obtaining an ID. The Vote Act specifically includes provisions 
to try to address those concerns.
    It authorizes, for example, states like Wisconsin to form a 
photo ID requirement for those who can't obtain one because of 
a disability or a physical incapacity.
    Of course, voters are not the only folks affected by a 
photo ID requirement. Those great folks that my colleague Vern 
Ehlers referred to sit on the other side of the table during 
the election, the poll workers, they will be affected, and my 
bill makes their job easier because it establishes a simple 
rule, voters must present a photograph ID.
    The photograph ID requirement is by no means the answer to 
all of our election problems--not by a long shot and I think 
that's something we can all agree on.
    For example, a key problem reported by the Milwaukee task 
force was a lack of sufficient training among poll workers. The 
Vote Act requires training for all poll workers, and again, it 
establishes a grant program that helps states meet those 
requirements.
    The task force also found problems with voter registration. 
20,000 registration cards were not processed in time by 
November. My bill also proposes changes to the registration 
system, increasing accountability, and setting clear standards 
in all facets of voter registration.
    The Vote Act contains provisions, that combat these and 
allows us to go after organizations that do not follow the 
standards originally outlined by HAVA which, as you noted, you 
were the lead author of.
    If someone recognizes fraud during say, a voter 
registration drive, my bill ensures that investigations into 
voting complaints start right away.
    Every American deserves speedy and thorough investigation 
into the problems arising from any election.
    In summary, Mr. Chairman, our democracy can withstand a lot 
of things, a loss of faith in our elections is not one of them.
    We have to believe that whoever wins, Republican, Democrat, 
conservative, liberal, your guy, my guy, he or she has won fair 
and square. It is the only way that our leaders have the 
democratic mandate they need to take on our nation's most 
heated challenges. That's why the work of this committee is so 
crucial to our future.
    And I appreciate the committee's willingness in traveling 
so far to look into the problems and all that has happened here 
in Wisconsin.
    If problems can arise in a state as great as Wisconsin and 
a community as great as Milwaukee, they can happen anywhere.
    I applaud your commitment to this issue. The American voter 
and I appreciate the chance to address this committee. It means 
a great deal to me. I yield back.
    [The statement of Mr. Green follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Ney. Again, I want to thank the Gentleman once again 
for inviting us here. This is why we are here, so we appreciate 
it.
    We are going to go to our first panel. I want to explain, 
there are time clocks. We are all four creatures of the 
legislature, all four of us. We have all served. I was a state 
Representative and state Senator so we have all served, and in 
most of our legislatures, you don't have to have a clock. 
Legislators kind of know when to wrap it up.
    Congress is a lot different. That way we can control 
things. We have a clock and it will go green and then it will 
hit yellow and you have a minute to sum up and then it hits 
red.
    We just try to stay to the clock and the timing, so I will 
give you a friendly reminder if it goes past the red. That way 
we can get all three panels in. That's the procedure of the 
House.
    Again, welcome State Senator Joe Leibham and also State 
Representative Pedro Colon. And I want to welcome both members 
and we will start with the Senator first.

             STATEMENT OF STATE SENATOR JOE LEIBHAM

    Mr. Leibham. Thank you, Mr. Chairman and Committee. Welcome 
to Wisconsin. It is a pleasure to welcome Senator Ney and 
Congressman Ehlers to Wisconsin and to welcome home two of 
Wisconsin's favorites: Congressman Green and Congressman Moore. 
It is a pleasure to see you both.
    Congresswoman Moore, I have not had a chance to visit with 
you since our departure Senate, but it is good to see you 
before us today.
    Mr. Chairman and committee members, one key block in 
foundation of our free country, our democracy here in America 
is our election process and the ability of our citizens to make 
a difference by casting a vote for our elected officials.
    Unfortunately, I believe and I believe it is being that 
this foundation has been softened if not eroded specifically 
over the recent years due to legitimate concerns regarding 
human administrative error and fraudulent voter activity here 
in Wisconsin.
    Each year we have witnessed increasing problems and with 
the process here in Wisconsin while the faith of our voters 
continues to erode. As Congressman Green indicated, we have had 
problems in the 2000 elections, 2002 elections, and most 
concerningly in the most recent 2004 election we have had a 
strong concern of questionable voter activity and 
administrative error.
    Recently the legislature put together a special committee, 
a joint legislative council committee that has been working to 
review the problems of the 2004 election, and that committee 
has been working in concert with some official investigations 
that are taking place here in the state of Wisconsin.
    We have the joint election fraud task force which is of the 
U.S. Attorney, the Federal Bureau of Investigation, the 
Milwaukee District Attorney, and the Milwaukee Police 
Department. That task force has been reviewing some of the 
problems of our 2004 election here in Wisconsin, and they have 
recently released some preliminary finding that show some very 
concerning things.
    Today the preliminary findings of that task force show that 
we have more than 100 individual instances of suspected double 
voting in the 2004 election, people voting in names of persons 
who mostly likely did not vote or voting in names of 
individuals that would be fake.
    We have more than 200 felons who voted when they were not 
eligible to do so. We have evidence of paid special deputy 
registrars who falsely listed approximately 65 names in order 
to receive compensation for those registrations, and to date, 
the number of votes counted in the City of Milwaukee exceeds 
the numbers of persons voting by more than 4500 individuals.
    To date, 14 people have been charged in connection with the 
overall investigation including 10 felons who have been 
suspected of voting illegally while still on probation or 
parole.
    Now, while the majority of the media coverage here in 
Wisconsin has been focused on the City of Milwaukee, our 
special committee wanted to take a look at what is happening 
across the state, we believe activity and administrative errors 
can take place in any location, so we asked the legislative 
audit bureau to conduct an audit of all of our election 
municipalities across the state of Wisconsin.
    Recently, as Congresswoman Moore indicated, that 
legislative audit bureau report was brought forward and they 
indicated a number of concerning problems as well.
    Specifically, the audit found that 98 ineligible felons may 
have voted in our 2004 election, two individuals who possibly 
voted twice, one voter who may have voted under age, and four 
absentee ballots that should not have been counted because the 
voters who cast them had passed away prior to election day.
    And these--this audit bureau information has brought 
forward, obviously, a number of areas of administrative 
functioning that could be changed in our election processes as 
well.
    But clearly these problems demonstrate, there needs to be 
some corrections in Wisconsin's election laws and our committee 
has sought about to do just that.
    Within the next couple of weeks, people can move a 
comprehensive package of election reform. That is going to do a 
number of things to reform our election processes.
    We worked with the City of Milwaukee, we worked with 
governor's administration, and we hope to bring forward a 
number of changes which would again not only administratively 
improve our election laws, but also deal with the potential of 
fraudulent activity.
    In addition to this comprehensive reform package, the 
legislature has been working on a photo ID requirement. I have 
joined Representative Jeff Stone in authoring a photo ID 
requirement here in the State of Wisconsin. That photo ID 
requirement does provide flexibility for individuals who do 
reside in nursing home facilities and assisted living 
facilities and would provide a measure which would cover costs 
for anybody who is unable to afford a photo ID.
    Unfortunately, that legislation has been vetoed by our 
governor three times, but we do plan to continue to move 
forward to focus on photo ID through legislative and a possible 
constitutional amendment.
    I would encourage the committee members to work with us as 
we explore our election processes here in the State of 
Wisconsin. We want to fix our elections.
    I would encourage you to endorse Congressman Green's Vote 
Act. It includes many provisions that we have looked at and 
plan to move forward here in the state of Wisconsin. And again, 
collectively, we need to accomplish our goal which is to ensure 
that that key foundation of our country, our democracy, the 
right to vote is maintained and enhanced here in Wisconsin.
    Thank you, Mr. Chairman and Committee Members.
    Mr. Ney. Thank you, Senator. Representative.
    [The statement of Mr. Leibham follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
         STATEMENT OF STATE REPRESENTATIVE PEDRO COLON

    Mr. Colon. Good morning. Thank you, Ms. Moore, Mr. Ehlers 
and Mr. Green for allowing me to testify and giving me 
opportunity to express my views on the issue requiring citizens 
to present photo identification for voting.
    As a person who runs for office and dedicates a great 
amount of time to influencing issues and elections, I am 
interested and committed to a fair election process for all.
    However, it has been my experience and understanding voter 
identification requirements will undermine the participation in 
the electoral system of local and statewide elections and 
ultimately lead to a government that is less representative and 
less legitimate in the eyes of the public at large.
    The election results in 2000 differed by about 11,000 
votes. The election 2004, those election results differed by 
about 5,000 votes.
    Given what happened in Ohio and what happened in 2000 in 
Florida and in Wisconsin, given the fact that the electorate 
was definitely unsure as to who should govern as most of the 
nation, it was greatly contested.
    The local newspaper in the Milwaukee metro area, the 
Milwaukee Journal Sentinel, suspecting that Wisconsin would 
become another Florida, covered the election process in the 
2004 elections and concluded that various procedures and 
process were not followed and that voter lists were woefully 
disorganized and poorly kept.
    This report did not cover the outlying areas of Milwaukee 
or the outlying suburbs.
    This in turn led to a partisan call and suspicion of voter 
fraud in the Milwaukee election. Based on those partisan calls 
for investigations, the local district attorney, the U.S. 
Attorney's office, the Milwaukee police department, conducted 
an investigation.
    So far as of August 22nd they have not been able to find 
any fraud in the allegations by essentially the Republican 
party's call for an investigation into the fraud.
    Of the total 105 cases found by the legislative audit 
bureau to have constituted fraud, 98 were felons who were not 
allowed to vote.
    We all understand that those felons should not vote or 
should not participate, but I don't know that a voter ID 
requirement is going to dissuade or in any way, shape, or 
reform not allow those felons to not vote in the future 
elections.
    According to Assistant U.S. Attorney Biskupic, there is 
still no evidence of widespread conspiracy, end of quote. As of 
found assorted clerical errors, other inconsistencies, but no 
fraud.
    At the same time the three investigative agencies have 
found no widespread fraud in our elections, the University of 
Milwaukee employment training institute has found 177,399 
persons over the age of 65 and 98,247 of the ages between 35 
and 65 simply do not possess a driver's license. Not 
surprisingly, disproportionately it is the elderly and the poor 
that do not have the driver's license.
    In my zip code of the area in which I represent 58 percent 
of the males do not have a driver's license and 36 percent of 
the females simply do not have a driver's license.
    The same study found that 3 percent of students residing in 
the dormitories at the University of Wisconsin Milwaukee campus 
and Marquette University, only 3 percent were properly changing 
their addresses on their driver's licenses.
    I also believe that a photograph identification would 
simply frustrate the course of the voting. In the Town of 
Caledonia not long ago a clerk decided she was going to get a 
jump start on all the lists that we talked about, and in the 
process of that during an education referendum in that town, 
the people became so frustrated at the requirement that they 
simply went home and midmorning during that referendum it was 
reported that she just simply stopped requiring the IDs. It was 
too cumbersome.
    Given the fact that there has been no widespread fraud 
according to the Attorney General, U.S. Attorney General, and 
given the fact that the people do not possess a driver's 
license, I don't know requiring a ID is the best way to 
maintain democracy and participation in the election process.
    I do understand that there have been problems. However, 
voter ID will not do anything to solve those problems.
    Just this past April, Governor Doyle proposed voter reforms 
that will address bureaucratic errors and called into question 
the integrity of our election system. This reform include a 
early voting option for all eligible voters, a mandatory 
training for poll workers, uniform voter registration cards 
requiring municipalities to develop an election day plan 
designed to meet 30 minute maximum waiting time at the polls, 
allow state wide uniform poll hours, and require maps of the 
polling sites for voters.
    It is my belief that we should be focussing on these types 
of reforms rather than creating more barriers for one to cast a 
vote on election day.
    Thank you for allowing me the opportunity to testify.
    [The statement of Mr. Colon follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Ney. I want to thank both members of the legislature 
for their testimony. I have a few questions and we will turn to 
my colleagues.
    In the Help America Vote Act we had a provision for first 
time registrants, that they could use an ID, the last four 
digits of their social security number, a bank card, a bank 
statement, or something else with their name on it.
    The Congress at that time didn't tackle the ID issue it 
didn't say; this is the ID you have to have. We started to go 
down that path, and decided to deal with it on a generic 
basis--so in federal elections, for the first time registrants, 
there is some ID requirement.
    Then there was the attestation that you have to be a 
citizen of the United States to vote, and that non-citizens who 
voted could be charged. So, some of this was left up to the 
states.
    There is still--and somebody will be testifying from the 
Carter-Baker Commission today--talk in Washington of voter ID 
and, the verified paper trail. My state has a paper trail 
requirement. I am always asked about whether we should mandate 
that nationally.
    So there are still questions ahead. We are looking at 
Georgia and their voter ID requirements.
    Do you have any comments--as we look at Georgia's law and 
what happened down there, part of it was struck down, Senator 
and also Representative, Congressman, since you authored the 
law that was vetoed several times, is there a difference 
between the way you approached it and Georgia approached it.
    The argument in Georgia was that you had to provide a piece 
of paper and tell why you could not pay for an ID, and another 
reason why it was struck down in Georgia with the voter ID was 
because of lack of locations and access.
    Any comments in the difference between the law here that 
was voted on and in Georgia.
    Mr. Leibham. Thank you. I will begin with the response. 
Under the provision that Wisconsin's legislature is continuing 
to review the three types of identification that we would 
require individuals to show prior to voting in Wisconsin 
election would be a state issued photo ID, state issued 
driver's license which has a photo ID on it, or a military ID.
    And we have written the legislation to ensure that there 
are a number of exceptions or provisions in place for 
individuals that may not be able to obtain. Specifically in the 
area of seniors we have an exception in the legislation that 
says if you reside in a nursing facility and an assisted living 
facility or you are infirmed in your own home due to a 
disability or inability to get to a polling location, you would 
being exempt from a photo ID requirement.
    In addition, under the Wisconsin legislation, we adopt the 
provisional voting concept that is at the federal level and 
that would say if you come in to a Wisconsin election on 
election day and for one reason or another didn't obtain or 
have the identification that was required, you could cast a 
provisional ballot and have until 4:00 o'clock the following 
day to come in and provide the appropriate identification.
    I think that is one major difference in the Georgia law, in 
allowing that provisional balloting to take place just in case 
a person does forget the ID on election day.
    Mr. Ney. Representative Colon.
    Mr. Colon. My only comment would be that talking about a 
voter ID reform assumes that there is voter fraud. I don't 
think that has been found anywhere.
    I truly believe that in this community in the City of 
Milwaukee we have a good U.S. Attorney general, we have a 
pretty good D.A. that does a good job and there are good 
investigative agencies. There simply does not exist any 
widespread voter fraud. Those are their words, not mine.
    The fact is that Wisconsin has a very progressive tradition 
of allowing and including people to vote. In the last election, 
we had 75 percent of the eligible voter voted.
    My view is simply that we can work on the polling sites, we 
can work on some of the things that we need to work on and we 
all understand that. I think that is a bipartisan 
understanding.
    But requiring an ID will disproportionally affect the 
people that simply have the least.
    I don't believe that we should make requirements that 
simply we will leave a large proportion of the electorate, of 
the eligible electorate to be essentially political refugees 
during an election.
    Mr. Ney. Any comments on the Help America Vote Act? First 
time registrants by mail will have to put their last four 
digits of social security, that would be under the federal 
provision. Any thoughts on that or--not a photo ID, but it is--
--
    Mr. Colon. That proposal has been being reviewed obviously 
at the state level, we discussed that. The question in regard 
to the social security requirement is basically the law says 
that an individual could put down four numbers supposedly 
supposed to be a social security number and then sign an 
affidavit that supposed to be suggesting that you are who you 
say you are, and again, if an individual is wanting to 
participate in fraudulent activity, those aren't two hurdles 
that are hard to overcome and that's the concern that Wisconsin 
has with the social security requirement.
    I should add, Mr. Chairman, that Wisconsin has probably 
some of the most open election laws in the United States of 
America in regard to the ability for any individual to come in 
and vote until 8:00 p.m. On election day. We have same day 
recommendation. We have provisional balloting opportunities.
    And what we are trying to do in the legislative approach 
and I appreciate your efforts as well maintain the openness 
while ensuring that that openness is not being taken advantage 
of. And to do that, you have to have checks and balances in 
place so that you can ensure that the voting process, the very 
open voting process is not being taken advantage of. Thank you, 
Mr. Chairman.
    Mr. Ney. As I am sure the members of the audience are 
aware, when we passed the Help America Vote act, provisional 
balloting was a key issue. That way, if you have any disputes 
in states about the ID requirements, and someone says, ``Well, 
this is not a proper ID''--people can still vote with a 
provisional ballot. Provisional balloting stops the 
disenfranchisement of individuals. We had conversation in Ohio 
about the intention of provisional balloting.
    I think the provisional balloting is a large key to HAVA. 
As states go down the voter ID or identification path, people 
could still use the provisional ballot if they are disputed at 
the polling place, they can still vote and have their ballot 
decided later.
    Do you have any questions?
    Ms. Moore. Thank you, Mr. Chairman. I thank this panel for 
their very, very astute testimony. I think I would like to 
question Representative Colon first.
    Am I going to have five minutes for both witnesses or just 
one.
    Mr. Ney. Both.
    Ms. Moore. Both of them together.
    Mr. Ney. Yes.
    Ms. Moore. Start the clock over again, okay.
    I am going to have questions for both of you and you know 
that I am not that good on not talking long, you know that.
    Mr. Leibham. We miss you.
    Ms. Moore. Here is the question. This Commission I believe 
that you served on, Senator Leibham, came with some excellent 
recommendations for reforming the elections process, and I 
guess I just really don't get it.
    I can't connect the dots between how requiring a photograph 
ID would stop some of the mistakes, errors, even the 98 felons 
that have been investigated, I believe one of those people have 
been convicted.
    And I am wondering about--and while protecting the vote is 
extremely important, I am wondering how you are reacting to the 
John Peroserat study that we entered into the record and I 
believe that Representative Colon referred to.
    You talk about the one voter that may have been under age 
in your testimony, the four dead people who didn't die on 
purpose I am sure, but they cast their ballots before they died 
on election day.
    And I am wondering how--how requiring a photograph ID which 
will have the impact of disfranchising over a quarter of a 
million, over a quarter of a million eligible voters in the 
state and very clearly this breaks out demographically to have 
a great impact on minorities.
    You take Wisconsin white men, for example, only 17 percent 
of them don't have a valid driver's license versus a Hispanic 
man 46 percent of whom don't have a driver's license, an 
African woman, 49 percent of them don't have a valid driver's 
license versus 17 percent of white women.
    When you break it down by age group, you are going to find 
that this discriminates against students, younger people, white 
men 18 to 24, 36 percent of them don't have a valid driver's 
license, but a Hispanic man, 57 percent of them don't.
    So I am wondering when we start looking at reforming the 
process, two questions for both of you.
    Number 1, how will a valid driver's license stop someone--a 
felon can get a driver's license. How will that stop a felon 
from voting number 1, and number 2, in terms of the scale of 
things, how would stopping--what is your response to the over 
quarter of a million people, particularly people of color and 
young people and the elderly, the adverse impact it will have 
on them were we to enact the voter ID requirement.
    Mr. Colon. I think I will be brief. I think that Wisconsin 
has a progressive tradition. The courts interpret them a vote 
that is cast has to be proven not meeting the requirements 
beyond a reasonable doubt. The same standard for voters who do 
a criminal conviction. That's how convinced we are in the state 
that people should participate.
    Now, having said that, I think you inevitably engage in the 
slippery scope that first you are requiring people to show the 
IDs and then you are requiring social security number and then 
require the conviction record and then require their INS status 
and then you continue on the slippery slope where we end up in 
the Dominican Republic where a police officer can stop you and 
require whatever it is that they want from you, and if you 
don't have that national ID, at least it was when I was a kid 
when I went on vacation there with my parents, you get thrown 
in jail. That is not the country I want to live in.
    I want to live in a state that allows me to vote and allows 
me to vote fairly, it runs fairly.
    I am happy to report that from my district in the 
neighborhood of south side, it is predominantly run by honest 
hard working people. That is a fact.
    Ms. Moore. Before your time runs out, I want to ask you 
this question. There can you--can you share with us a little 
bit of wisdom about the folks who are unbanked. We have been 
constantly getting examples here of why can't people have IDs.
    You need them for your bank accounts, you need them to go 
to Blockbuster Video. You need an ID to get on an airplane.
    Can you explain to us why many people in the Hispanic 
community are not middle class because it sounds to me like we 
are putting an asset test on people, people who don't have 
cars.
    Can you please respond to me whether there is any 
relationship between having valid driver's licenses and being 
middle class.
    Mr. Colon. Again, briefly my experience is in my district 
people have two jobs, sometimes three jobs, they live on a 
month-to-month basis to make a living.
    The economy is largely on a cash basis. You have temporary 
jobs that don't provide any sort of economic stability.
    All of these things lead to movements from apartment to 
apartment to apartment, and the fact is the more requirements 
that you impose on people to cast their vote which is their 
right, which is the premise of our whole constitution and our 
form of government, I think it would be wrong to disenfranchise 
those people.
    I don't believe that these people are dishonest. I don't 
believe that the people in my district are any--have a tendency 
to fraudulent activity any more than any other district.
    Unfortunately, I don't think there is a cause and effect 
between a voter ID and the fact that we would somehow diminish 
voter fraud. The fact is that we have not found voter fraud. 
The fact is that all the mistakes that have been found 
including felons voting, addresses not existing are largely due 
to the power structure; that is, the people that run the 
elections.
    We are the ones responsible for delivering the electoral 
system, and we have failed to do so. People have acted the most 
reasonable way they can. They have waited in lines, they have 
gotten to the tune of 75 percent of eligible voting, they are 
doing their job.
    I don't understand why it is that we are requiring them to 
now overcome some burden that we have created as a people who 
run elections and actually make our living at it.
    Mr. Ney. Time has expired.
    Ms. Moore. He is a state legislator.
    Mr. Ney. The Senator may like to answer this.
    Mr. Leibham. If I may briefly, thank you Congresswoman, for 
the question.
    First, under the legislation that the state of Wisconsin is 
considering, we have amended recently on a bipartisan effort to 
deal with the felon issue, and specific language in the bill 
that Governor Doyle has even indicated that he would support 
specifically that would inform an individual who is in felony 
status that they don't have the right to vote, and that's how 
we are handling that situation.
    Number 2, in regard to the administrative functioning of 
our lesson and how it may help. I would encourage, and I am 
sure you talked as well, but talk with the poll workers.
    This past I talked with three ladies who work at polling 
locations in Sheboygan and Manitowoc, elderly women who are 
saying that photo IDs would help them to more administratively 
function the election with ease.
    When you see a name on an ID tied to a photo, it is easier 
to be able to move people through the voting process, election 
process. I have not met a poll worker at least in my district 
that has indicated that by asking individuals to show a photo 
ID, it would be a greater burden or challenge in the election 
process.
    Please remember as well that under the photo ID legislation 
that we are considering, we have no costs for a individual to 
receive an ID, so there is not an economic concern that should 
be legitimate.
    Ms. Moore. Excuse me, Senator, but there is because you 
have to have a birth certificate in order to get a photo ID, 
and if you are born in Mississippi, I have done this, you have 
to send for it, you have to pay 12 bucks for the birth 
certificate. If you have got until 4:00 p.m. When you cast the 
provisional ballot, somehow you have to get the register of 
deeds in Mississippi to get it to you and Fed Ex to get there. 
There is a cost of having a photo ID.
    So I--I am asking you when we--we don't want to 
disenfranchise a single person.
    The question to you was the scale. If there is a person who 
when we have penalties and I am for enforcing the law, if 
someone fraudulently votes and they are not eligible to vote, I 
am for prosecuting them; but what I am saying is why would we 
prosecute 275,000 people who are not middle class, they don't 
get on airplanes, they don't need a photo ID. They are unbanked 
so they don't need a photo ID.
    They are students, they live in the dorm, they are poor, 
they move three times a year so even if they had a photo ID, so 
even if they have a photo ID, it may not have the correct 
address on it.
    And I am asking you how you rationalize disenfranchising 
over a quarter of million people when there is no connection 
between having a photo ID and having the right to vote.
    Why can't--what is wrong with our system now where you 
can--register in advance, but if you go on election day, you 
can go there and show your utility bill, current utility bill, 
you can have your mother corroborate that you turned 18 two 
months ago and sign an affidavit under penalty of law that you 
are who you say you are, what--how do you rationalize that.
    Mr. Ney. We are way over time, but since you have been 
posed a question, please answer, and then we will move to Mr. 
Ehlers.
    Mr. Leibham. Actually I want to encourage the committee 
like we have done in Wisconsin as you are reviewing any photo 
ID proposal across the nation that you seek information from 
the states in regard to other areas in which they require a 
photo ID.
    If you look at Wisconsin, we require a photo ID for a 
individual who receives food stamps. To apply for the food 
stamp program you have to have a state issued photo ID.
    If you are a student who is wanting to take the ACT or SAT, 
you have to have a photo ID in Wisconsin to be able to 
participate in the program.
    As Congressman Green indicated, just recently to purchase 
cough medicine in Wisconsin, Governor Doyle signed a law that 
requires a photo ID for an individual to purchase cough 
medicine.
    And we have other provisions that require individuals of 
all economic stature and all background to have state IDs for 
state law.
    I think it is rational to suggest in an election process in 
which we are simply trying to confirm the identify of an 
individual who already under law has to register, we are simply 
asking them to identify themselves with a photo ID. Thank you, 
Mr. Chairman.
    Mr. Ney. Okay.
    Mr. Ehlers. There appears to be a little disagreement on 
this issue.
    Now, let me ask you, in Wisconsin, when someone registers 
to vote, do they receive a card indicating that they are 
registered to vote and giving the polling place where they are 
supposed to vote, giving the address?
    Mr. Leibham. State law does not require that, but some 
communities do have processes in which they send out voter 
cards to individuals. It is typically in more smaller towns 
that continue that practice and that is one area we are looking 
at in the special committees.
    For instance, through the requirement of HAVA for the voter 
registration to bring consistency how that preregistration and 
preelection day activity takes place.
    Mr. Ehlers. I am surprised it is a not a state requirement. 
I would certainly suggest it is a first step.
    I find the arguments against a photo ID not very 
convincing.
    It is not that--as I say, Michigan has a state issued ID, 
it is not a voter ID, but it is a state issued ID. And millions 
of people get those because they find that very useful to have, 
and it does not, in my experience in Michigan, seem to impose 
any burden whatsoever in terms of getting that information and 
that card.
    So I am really puzzled by the opposition. It makes me 
suspect that the opposition is fairly political, and I am not 
here to raise partisan planes at all, but it seems strange that 
the Democrats seem to be opposed to it.
    I heard your comment that there is not wide-spread fraud, 
and I read the account, and I would agree the evidence does not 
appear that there is wide-spread fraud in Wisconsin.
    The same cannot be said for some of your neighbors not too 
far to the south, but there is always the potential there.
    And the point of voter laws is to try to ensure the 
integrity of the election.
    When you have elections decided by 11,000 votes out of an 
entire state, it doesn't take very much fraud or error to 
change the result, and it seems to me the goal should be to try 
to use every means possible.
    The controversy here seems to settle in voter ID, picture 
ID I should say, but that's only part of it. And Representative 
Colon, you made that comment, you have all of these other 
things you should do.
    I agree you should do those. That doesn't mean you 
shouldn't have a picture ID as well, if that is becoming a 
problem in this state.
    Very few states have it, but more and more are getting it 
because there is more and more fraud across the country 
occurring, and it doesn't have to be widespread. It can be just 
individuals doing this and not, not distinguishing by wide 
spread I mean organized fraud where a group, a party, or a set 
of individuals decides to organize fraud.
    There is not too much of that in America although there is 
some, but certainly there is a lot of individual fraud going on 
and that's what we want to stop as well.
    In order to speed things along since we have to move along, 
Mr. Chairman, I won't ask any questions at this point.
    Mr. Ney. Thank you. One note before I move on to Mr. Green. 
I was asking the staff, and Mr. Ehlers and I were involved in 
looking at election over eight years ago.
    If I recall, 720 people that voted were not citizens of the 
United States.
    Mr. Ehlers. We suspect far more, but it was very----
    Mr. Ney. Very close congressional race, there were quite a 
few people, but there were quite a few people that were not 
citizens of the United States that voted in the congressional 
election.
    And so we have always historically being on this Committee, 
viewed that if you had a way to--if you knew that person was a 
citizen or not, call me old fashioned, but I think you ought to 
be a citizen of the United States to vote in elections.
    We went through that. I wanted to make it as a side note. 
It was a considerable amount of people, quite a close election 
that had no form of ID, and there they went, they registered, 
and they were not citizens.
    So we have a little bit of history on the issue.
    Mr. Ehlers. Mr. Chairman, as you recall, I chaired the 
contested election committee. Pretty close to the worst 
experience of my life.
    And I was dismayed to find the extent--really was an eye 
opener to the extent of the fraud, the state's errors, 
etcetera, and shows we have a long way to go on election law.
    Ms. Moore. Mr. Chairman, I am old fashioned, too. I could 
not agree with you more that I don't want noncitizens to vote.
    The fact is that noncitizens can get driver's licenses.
    Mr. Ehlers. Well, I am against that, too.
    Mr. Ney. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. As I did my questions, 
something I wanted to clear up.
    A couple of times we have heard the statement that 
investigators have not found fraud in Wisconsin. That's simply 
not true. In fact I am looking right here at the public 
statement that said they did find clear evidence of fraud in 
the November elections and the analysis was none the less it 
was unlikely that there would be much prosecution because, not 
my words here, city records are so sloppy, it will be difficult 
to establish cases that will stand up in court, but they did 
say they had clear evidence of fraud.
    The other thing I wanted to mention, I want to make it 
clear we are obviously in Milwaukee for a variety of reasons, 
but the whole issue of photo ID is one that is important 
statewide including in Milwaukee.
    The public polls that we have seen show very strong support 
across more than two to one and majority support right here in 
the City of Milwaukee, so sometimes these issues get cast and 
at least in our state and Milwaukee versus the state, that is 
simply not true.
    The question I have though is Representative Colon, as you 
know the Carter-Baker Commission called for one of it's 
principal recommendations of photo ID. It says, I am quoting, 
we are recommending a photo ID system for voters designed to 
increase registration.
    And then President Carter, obviously not a right wing 
zealot, and senior member of the commission, he says, ``I 
personally had at the beginning some reservations about the 
issue. This will be, I think, a move forward in getting more 
people to vote. It would not restrict people from voting.
    It will uniformly apply throughout the country. It will be 
nondiscriminatory.''
    Why do you think that President Carter and the Carter-Baker 
Commission support a photo ID requirement for voting.
    Mr. Colon. I have no idea. Actually I can only tell you 
what happened in Wisconsin, and in Wisconsin of all that fraud 
that is claimed to have happened, one conviction has been 
obtained, only one.
    Mr. Green. As I said, the prosecutor said that it would be 
difficult because of sloppy records, but they said they found 
clear evidence of fraud.
    Mr. Colon. If you find fraud, you should prosecute it. It's 
just that simple.
    Mr. Green. Even if you don't have evidence.
    Mr. Colon. Well, if you don't have evidence, you don't have 
fraud.
    Mr. Ney. I would please note to the audience as I have 
before, do not show applause nor booing. Thank you.
    Mr. Green. Again, I think it is important to remember 
because you said a couple of times that there was no fraud, and 
again, you praised both our U.S. Attorney and our Milwaukee 
County D.A. And they do say there is evidence of fraud, they 
said there was clear evidence of fraud.
    Mr. Colon. Simply bring the cases forward----
    Mr. Green. But just to clarify, there was clear evidence of 
fraud, so it is inaccurate to say that there was not fraud.
    Mr. Colon. There is obviously two disagreements.
    There is obviously a disagreement about whether there was 
fraud. I happen to think that one conviction does not lead to 
widespread fraud. I happen to believe Attorney--U.S. Attorney 
General Steven Biskupic on the issue because he has looked, he 
has the power, and he is in fact the one that we rely on to 
bring those cases along----
    Mr. Green. He was the one I was citing here. He was the one 
who said that there was fraud.
    Mr. Colon. I understand. I am saying if there is evidence 
of it, we certainly would like to know and there is evidence of 
it, we have all of these courts right in this building ready to 
go.
    If he has evidence, he should bring the cases forward.
    If he can't prove it, then maybe an issue as to the quality 
of the lawyering or something else, but it is not the issue.
    The evidence is what rules a courtroom. We all understand 
that.
    Now secondly, on the issue of the Carter Commission, there 
has been sent--I can't speak for the Carter Commission, I don't 
know it, I know what occurred through the media and so forth, 
but ultimately, this is Wisconsin and in Wisconsin we allow 
people to vote.
    And if we are going to error on the side of something, we 
are going to error on the side of democracy.
    If we are going to error on the side of a few mistakes 
which is all that has been found, we are going to allow people 
to participate.
    The fact is that tradition goes back to the beginning of 
our state, and it will continue. I have no doubt.
    We have a agreement, but I think our agreement as 
Congressman Ehlers indicated, it is much narrower. I agree with 
Senator Leibham that there are many things we can do to provide 
a better election system. I just don't believe the punishment 
to be further barriers to those who actually participate in 
good faith.
    By and large, all of those people who participate legally 
and with the faith that those systems that are run by the good 
poll workers in our neighborhood are run for the benefit of 
good election results. I think we agree on that.
    Mr. Green. Mr. Chairman, my time has expired.
    Mr. Ney. I want to thank both the Senator and 
Representative for your time today and the members of the 
Committee. Thank you.
    We will move on to panel 2. Panel 2 will consist of Kevin 
Kennedy, Executive Director of the Wisconsin State Elections 
Board; Sharon Robinson, Director of the Milwaukee Department of 
Administration; Susan Edman, Executive Director of the 
Milwaukee Election Commission; and Kathy Nickolaus, Waukesha 
County clerk. Thank you. I appreciate all of you being here, 
and we will start with testimony of Mr. Kennedy.

   STATEMENT OF KEVIN J. KENNEDY, EXECUTIVE DIRECTOR OF THE 
                WISCONSIN STATE ELECTIONS BOARD

    Mr. Kennedy. Thank you, Chairman Ney, Congressman Ehlers, 
Congresswoman Moore and Congressman Green. I really appreciate 
the opportunity to be here.
    I have provided additional copies of my testimony as 
requested, and what I would like to talk about a little bit is 
Wisconsin's unique situation in administering elections, just 
in case I do not have it I have two maps of the state of 
Wisconsin which I would offer for the committee, they are part 
of my testimony on page 18.
    Mr. Ney. Without objection.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Kennedy. These maps illustrate some of the uniqueness 
in Wisconsin in terms of complying with the Help America Vote 
Act in terms of voter registration in the State of Wisconsin 
and the type of voting in the state of Wisconsin.
    The Packer colored map, green and yellow, is voter 
registration. Wisconsin currently does not have voter 
registration. Under 5,000 as part of the Help America Vote Act, 
we have enacted legislation that all of our municipalities will 
have it. In some of the small municipalities in yellow, when 
you walk in to vote, people know you or they recognize you, and 
that has been our protection. We can't ask for identification 
for those individuals.
    Starting in 2006, every voter will be required to be 
registered to vote. Wisconsin also has election day 
registration preferred, and in those municipalities which is 
about three quarters of our voting age population, we find that 
20 percent of the people who come to the polls either 
registered for the first time or make some change to their 
registration such as changing their name or their address, 
highly mobile population.
    Those individuals do provide identification, that 
identification is consistent with the requirements of the Help 
America Vote Act for first time voters.
    We have provisional voting but only for first time voting 
currently in Wisconsin. In the 2004 election, 374 individuals 
were required to cast provisional ballots out of the three 
million votes that were cast in the state of Wisconsin. That is 
because we have election day registration, those individuals 
who did not have that identification be registered at the 
polling place in most cases. That was something we worked very 
hard for as part of the Help America Vote Act was to provide 
for that.
    That provisional voting is usually quite frankly a fail-
safe catch up for the type of errors that creep in through the 
voter registration process.
    I think the thing that I have to emphasis the most, besides 
the uniqueness in terms, illustrated by the two maps, is that 
the election process is really about people.
    In Wisconsin, we have 2,000 elected officials, we run our 
elections at the municipal level. That's why the maps are coded 
at the municipal level.
    The clerks are the ones that equip, hire, and train the 
poll workers. Most--that includes 1850 municipal clerks, and 72 
county clerks, deputies, and individuals in our office.
    We have about 20,000 poll workers at our November election, 
working on that and they deal with about three million voters 
in the last election.
    All of these people are affected by the various legislative 
proposals, and it is generally through those areas where I 
think we find a lot of the concerns.
    As Wisconsin's chief election officer, to tell you I 
welcome the level of scrutiny that we have had to endure since 
2000. I think it helps illustrate some of the issues that not 
only our office but the county clerks and municipal clerks have 
to wrestle with.
    There are a lot of challenges because of all the people 
that are processed in terms of that.
    The second map illustrates the challenges we have in 
dealing with the Help America Vote Act requirement in terms of 
equipping polling places for individuals with disability.
    We are a paper driven state. Some of those municipalities 
have 70 voters, 150 voters, 200 voters, and it is a real 
challenge to bring in something other than paper ballots.
    On that map, I forgot the color, I think it is green is the 
paper ballot coding, and you will see how much territory even 
though it is about 12 percent of the voters in our state.
    Let me conclude my testimony, I will certainly welcome 
comments, but I want to say how much I did appreciate the 
scrutiny that is going on because it is only going to improve 
our process, but to reemphasis as we moved forward the election 
process including voter registration and voting equipment is 
about people, voters, local election officials and their 
participation in the electoral process. We will always have to 
balance the constitutionally protected right for eligible 
citizens to participate in the electoral process with the 
public policy that ensures participants have the utmost 
integrity of that that requires significant balancing. It 
requires commitment of government resources that has not been 
available in the past despite the infrastructure that HAVA has 
made which has allowed us to put together statewide voter 
registration system, to allow us to put accessible voting 
equipment in.
    It is not enough in terms of the commitment that we have 
and continue to go. Thank you very much.
    [The statement of Mr. Kennedy follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Ney. Thank you. Ms. Robinson. I went down the order.

   STATEMENT OF SHARON ROBINSON, CHAIR OF CITY OF MILWAUKEE 
                      ELECTION TASK FORCE

    Ms. Robinson. Congressman Ney, Congresswoman Moore, and 
committee members, I am honored to be here today in my capacity 
as chair of the City of Milwaukee election task force and also 
remark on the topic of election reform.
    The protection of voting rights is perhaps the most 
fundamental of all rights guaranteed by the U.S. Democratic 
form of government and implicit in that right is the right to 
have one's vote count and have an election process that 
guarantees the cleanest and fairest elections possible.
    Both the 2000 and 2004 exposed the many challenges facing 
our election system. Major cities across America experienced 
unusually high voter turnouts, record numbers of absentee 
voters, and questions surrounding how the November 2004 
election was conducted.
    Like many other cities located in key battleground states, 
Milwaukee will continue to be a spotlight of national attention 
in presidential and gubernatorial years. I can assure you that 
Milwaukee's Mayor and our city workers are committed to 
improving our election system while honoring the great 
traditions of our state.
    We should all take pride in knowing that Wisconsin has been 
one of the most progressive states in eliminating barriers to 
voting and maximizing voter participation.
    In 2004, Wisconsin had the second highest voter turnout in 
the country, second to Minnesota. South Carolina on the other 
hand which has the most restrictive voting laws on the books, 
experienced the lowest turnout in the entire country.
    Recognizing the needs to modernize Milwaukee's election 
system, Mayor Barrett formed the Milwaukee--City of Milwaukee 
Election Task Force. The Mayor charged the task force with 
proposing specific, practical changes to improve the city's 
election process in ways that would guarantee efficient 
elections and restore pride and confidence in our system.
    As a result of our comprehensive review, the task force 
found imperfections with the city's election system and 
mistakes that occurred in the November, 2004, that were 
unacceptable. Most of the problems can be attributable to the 
sheer size of the election as well as staffing and training 
issues.
    Under the capable leadership of election commission 
executive director Susan Edman, the city has already taken 
steps to document standard operating procedures, enhance 
training, and recruit more poll workers.
    Poll workers do their jobs admirably and often under very 
difficult situations; however, the task force found tremendous 
potential for improvement in the recruitment, training, and 
development of poll workers.
    When conducting a post-election review of the November 2004 
election, the election commission found inspector statements 
that were not filled out accurately and completely. In 
addition, many election poll list vote totals were not 
reconciled to the machine recorded vote totals at the end of 
election day.
    As a result of these inconsistencies, inaccuracies, and 
incomplete poll books and inspector statements, there were 
discrepancies between the total number of voters recorded and 
the total number of ballots cast.
    These discrepancies have been the subject of intense media 
scrutiny, but contentions of fraud have been overblown.
    The task force has not found any evidence to conclude that 
these mistakes were based on fraud or the willful neglect of 
any poll worker.
    This find is consistent with the preliminary findings of 
the joint task force led by the U.S. Attorneys Office. A recent 
investigation by the Wisconsin legislative audit bureau also 
reflects similar findings. Last fall, over 200 felons did cast 
votes illegally. There was virtually nothing the city could 
have done to stop these citizens from voting who, by the way, 
ironically used their own names.
    However, a major task force recommendation would discourage 
felons from casting votes by requiring municipalities to 
include a clear statement on voter registration cards 
explaining that felons on paper are prohibited from voting.
    Another key recommendation calls for tighter controls for 
deputy registrars such as tracking their activity and banning 
pay based on a quota system.
    Perhaps the most important message I want to convey today 
is the need to infuse more resources into elections.
    If we really want to improve the way we conduct elections 
in this state, the solution is that management and adequate 
funds so cities don't have to continue trying to conduct 
elections on the cheap. Without adequate funding, we will get 
what we pay for.
    As we continue to explore the topic of election 
administration in Wisconsin and ponder proposals for reform, I 
hope that everyone in this room will walk away with a spirit of 
bipartisan cooperation and a real willingness to work together 
to implement meaningful election reforms.
    We all owe a tremendous debt of gratitude to the brave men 
and women who gave their lives for the cause of civil rights 
and the right to vote in this country.
    So let's approach our work with honor and in recognition of 
their tremendous sacrifice. Thank you for the opportunity to 
testify.
    [The statement of Ms. Robinson follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Ney. Thank you. Ms. Edman.

  STATEMENT OF SUSAN M. EDMAN, EXECUTIVE DIRECTOR OF CITY OF 
                 MILWAUKEE ELECTION COMMISSION

    Ms. Edman. Good morning Chairman Ney, Congresswoman Moore, 
and committee members, as the newly appointed executive 
director of the City of Milwaukee's election commission, I 
would like to thank you for the opportunity to speak this 
morning on election reform. I believe it is highly advantageous 
to the process of initiating effective changes to Wisconsin 
election systems to include those individuals with direct 
involvement in elections.
    I believe that it is these individuals that have the 
greatest capacity to determine what election administrative 
changes will improve the integrity and accuracy of future 
elections as well as maintain Wisconsin's long-standing 
commitment to fair, open, and accessible elections.
    As election reform leaders, our work must be thoughtful, 
appropriate, and warranted. It cannot be impulsive, 
superficial, politically motivated, or enacted to distill a 
false sense of public confidence.
    At this time there is unprecedented activity in the state 
of Wisconsin and across the country relative to election 
reform.
    I am confident that administrative systems are being 
assessed in Wisconsin municipalities to ensure that systemic 
problem experienced in the 2004 election will not reoccur in 
future elections. Additionally, the bipartisan legislative 
committee on election reform has recently completed a two-year 
review of Wisconsin election laws and are in the process of 
compiling a legislative package that fully addressed the 
state's statutes that are outdated and applicable, and in some 
instances a hindrance to clean elections.
    Completion of this work coupled with a comprehensive reform 
package will further Wisconsin's position as a state with 
clean, fair elections.
    I am respectfully asking the members of this committee, 
Wisconsin legislators, and Governor Doyle to support the 
thorough and thoughtful work of the Milwaukee Election Task 
Force, the special committee on election law and the 
legislative council on election reform.
    I ask for your support in allowing for the full 
implementation of the work of these three groups before 
proposing additional legislation.
    Allow me to share with you a recent statistic regarding 
voter participation in the City of Milwaukee. There are an 
estimated 430,000 eligible voters in the City of Milwaukee.
    Of that 430,000, 85 percent are registered with the 
election commission to vote. That number is significant and 
represents a voter dedication and parties participation far 
higher than many municipalities throughout the country.
    Allegations of voter fraud during the 2004 presidential 
election warranted a comprehensive review of the city's 
election system as well as state statutes regarding elections.
    The city is sincerely grateful to Sharon Robinson, the 
chair of the Election Task Force, as well as the other city 
government and community leaders that conducted that assessment 
and completed a plan of action that is appropriate and one that 
will result in effective election reform measures.
    You already heard Ms. Robinson speak to the opportunities 
for improvement that were identified through the work of the 
Milwaukee Election Task Force. I am here to assure you that the 
Milwaukee Election Commission has already made significant 
progress in implementing these recommendations.
    We have begun the process of purging the Milwaukee's 
registered voters of over 40,000 inactive voters to ensure 
reliable poll lists.
    We have promoted a system for processing absentee ballots 
that will allow the highest level of quality assurance.
    We have restructured the staff of the Milwaukee Election 
Commission to establish greater levels of efficiency 
effectiveness, and accountability.
    We have contributed to the full implementation of the 
statewide voter registration system that will greatly reduce 
voter registration database issues including duplicate 
registration, deceased voters, and voters that moved outside of 
the municipalities.
    We have facilitated several poll worker feedback sessions 
in order to ensure that all--to establish standardized best 
practices for operating a polling places.
    We have partnered with community groups and persons with 
disabilities in order to ensure that all eligible voters, 
regardless of a disability, can vote independently and 
privately in the City of Milwaukee.
    We have initiated a split shift for poll workers to 
alleviate poll worker fatigue on busy election days.
    We have fully revised our poll worker training program to 
expand the training from one hour to two hours and made 
participation in training mandatory. We are about to launch a 
poll worker recruitment campaign. Our hope is to recruit 
another 250 workers by spring election and another 500 
additional poll workers prior to the fall election.
    Mr. Ney. I would note your time has expired. If you would 
like you may summarize and enter the rest for the record.
    Ms. Robinson. I would like to point out that the City of 
Milwaukee remains fiscally dedicated to clean, accurate, and 
accessible local elections at a time when significant 
reductions to the City's budget have become necessary.
    It is equally important to note that while Wisconsin 
legislators are exploring election reform legislation, there 
has not been a meaningful discussion of appropriating state or 
federal funds to support improving election systems.
    As we move ahead on election reform, we must ensure that 
our responses to the problems identified in the 2004 
presidential election are again appropriate and warranted. 
Thank you.
    Mr. Ney. Thank you very much.
    [The statement of Ms. Edman follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Ney. The last witness is Ms. Nickolaus.

      STATEMENT OF KATHY NICKOLAUS, WAUKESHA COUNTY CLERK

    Ms. Nickolaus. Chairman Ney, members of the committee on 
House Administration, thank you for the opportunity to appear 
before you today to speak about election administration in 
Wisconsin and possible proposals for reform.
    As the county clerk, one of my jobs is to protect and 
promote public trust and confidence by administering accurate 
and fair elections. I ask that you consider some changes and 
additions to current laws that would give me the tools to 
better serve my constituency as well as ensure fair elections. 
I will cover them in the next five minutes.
    As you heard, the Carter-Baker Commission in September made 
some recommendations in a report on federal election reform, 
recommendation 2.5.1 was to require voters to use an ID to 
ensure the person on the poll list is the person voting.
    You also heard mentioned that our state legislature has 
passed three bills requiring photo ID to ensure that integrity, 
but our Governor has vetoed them.
    In a poll conducted at the beginning of this month by the 
Wisconsin policy research institute, Wisconsin residence were 
asked their opinions on photo ID requirement. Statewide the 
results were 69 percent in favor. My county, 93 percent 
surveyed favored the requirement, and in areas of the state 
such as the City of Milwaukee and the City of Madison, 60 
percent were reported in favor. This is not a partisan issue.
    During the trial in Milwaukee for a person accused of 
voting twice, the jury was hung. The district attorney from 
Waukesha County has been quoted as saying I know a person voted 
in Waukesha County and voted once in Milwaukee, but because I 
don't have written documentation of it, I can't move on it.
    His investigation investigators were unable to prosecute 
other cases of people voting twice in the 2004 presidential 
election because there was not adequate proof according to the 
D.A.
    Requiring a photo ID such as proposed by Congressman 
Green's Vote Act would rectify these situations. As an election 
administrator, it is difficult to answer the questions of a 
voter who calls after going to vote and found that someone has 
voted for her or someone notices his deceased wife has marked--
was marked as having voted.
    Also included in the Carter-Baker Commission report was a 
remark, and I quote, ``uniformity and procedures of voter 
registration identification is essential to guarantee the free 
exercise of the vote by all U.S. Residents.''
    In Wisconsin we have same day registration with the ability 
to have someone vouch for residency. Let's take a look at a 
possible scenario. It is the presidential race and Wisconsin 
has same day registration with a residency requirement of 10 
days.
    If someone would like to change that outcome of the 
election by swinging Wisconsin votes towards one candidate, 
they could have people come from out of state, live in 
Wisconsin for 10 days, maybe work on the campaign.
    This gives them the ability to vote in Wisconsin instead of 
the state in which they came from. They don't need 
documentation because they can ask the person that they are 
staying with to vouch for them.
    State auditor Jan Mueller wrote that ``current voter 
registration practices are not sufficient to ensure the 
accuracy of voter registration lists used by poll workers.''
    This is not a small number of people who register the same 
day on election. In Milwaukee alone in the city there were 
77,000 people who voted at the polls and of the 77,000, 4,900 
of them could not be verified as valid.
    As a state by the Commission--as stated by the Commission's 
report, uniformity is essential. Residency for voting should be 
the same length of time no matter what state you live in and 
you should not have the ability to have someone vouch for you.
    We know that voter verified paper audit trails were not 
required by the Help America Vote Act, but are being considered 
as a requirement in many states. As part of the legislative 
election reform committee, we discuss the inconsistencies in 
our state between counties.
    According to selection line dot org, 15 states require the 
recount to be done on the paper ballot or on a paper trail 
instead of the electronic machines, but two states require a 
recount to be done on the election machines.
    Either way, there are possibilities for failure again, but 
again the consistency throughout the United States would help 
electorate stop questioning why one state's election process is 
different from another.
    In the legislative reform committee, we discuss training 
our poll workers. Currently only our chief inspector is 
required to go through training provided by the state. We 
believe that all poll workers should require some training.
    When I speak to people, other election administrators 
outside of the state, their requirements for poll workers are 
either lacking like ours or required many hours of training.
    A federal requirement would ensure excellence and 
competence in maintaining the highest level of accuracy of 
elections across the nation.
    Mr. Ney. Your time has expired so if you like you may 
summarize.
    Ms. Nickolaus. In closing, I want to reiterate that the 
problems we see in Wisconsin and elsewhere are urgent ones, 
they demand speedy and decisive action. Free and fair elections 
are a bedrock component of American democracy. Any diminishment 
of integrity our electoral process damages our democracy, 
undermines our people's faith in their government, and 
threatens our nation as a whole.
    Thank you for coming to our part of the country.
    Mr. Ney. Thank you very much.
    [The statement of Ms. Nickolaus follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Ney. In drafting the Help America Vote Act, we were 
very careful to do a few things. One, the EAC that was 
established which is two and two, Democratic, Republican has no 
rule-making ability. I did not want to create the EPA of 
elections where you get a new rule and regulation every week 
and then they say. ``Well, the authors of the bill, did you 
mean this, no? Well we are going to do that any way.'' I did 
not want the federal bureaucracy to run your elections here in 
Milwaukee or in Utah or Ohio or anywhere in the nation. So we 
kind of had a balance between trying to do things we thought 
were standard without federalizing the elections.
    I was a large believer and still believe today that the 
blind have the right to vote in secrecy. The Help America Vote 
Act, for the first time in people's lives, allows the blind to 
vote in secrecy.
    Now, you do have some complications and that's what I 
wanted to ask you when you got the paper ballots. As of 2006, 
how do you intend to have the one precinct equipped for people 
who have a form of a disability.
    Mr. Kennedy. We have set aside $18 million of our Help 
America Vote Act Title II money which is roughly $6,000 for 
each polling place in the state to acquire a piece of equipment 
that will enable an individual with disabilities to vote 
privately and independently. The challenge of that is of course 
we put the equipment in there, the poll workers will have to be 
trained on that, the municipality will be responsible for the 
programming and the cost may be shared.
    The ongoing costs are going to be a real challenge and some 
of those places we are dealing with individuals who are 
complete municipality where this equipment--anyone may be able 
to use it. There may be no one who really benefits from it from 
that advantage and that's the push back that I get from the 
locals is we have not had to deal with this.
    We explain the law to them, we are prepared to deal with 
it. We tested the equipment. We have got two vendors that 
finally got through our process in Wisconsin. We don't just let 
any vendor walk in and sell, they have to go through the 
process of qualifying standards, voluntary standards that have 
been established in the new ones.
    We have gone through two vendors now that we will be 
recommending to the board for that and will be prepared. My 
sense is it that for the April elections, every polling place 
will be in the position to have that. We have put a condition 
on that though that we will not give that $6,000 for 
reimbursement unless the polling place is physically accessible 
and we have surveyed all of the polling places, of the 2800 
polling places, a 1,000 that may still need some changes.
    Mr. Ney. That was the one requirement we had. When it came 
to a person who had some form of a disability, we use the blind 
as an example, but there are height issues, there is access, 
wheelchairs, there is a lot of different considerations.
    But the one requirement was that one polling place--some 
people argue. ``Well, a small area where we only have 300 
voters, we have no one that is blind''--well, you might have 
somebody that moves into the community that is blind or has 
some type of access issues, or is in a wheelchair. That was the 
one thing we did.
    Now, this is the first federal money in the history of the 
United States through the Help America Vote Act, Partisan Hoyer 
and I pushed quite heavily and worked with the leader Dick 
Gephardt and now Leader Pelosi and Speaker Hastert and we 
reached the three billion mark. We have about $900 million more 
so this is not an unfunded mandate.
    We are pretty intent on trying to get that money from the 
federal government, but we always do work with groups across 
the country, advocacy groups, that would never pay a dime for 
that. We do--what we do that.
    But I was curious to see how you would meet that one 
requirement.
    I just want to ask very quickly what is your reaction to 
the joint task force finding that there were 4500 more ballots 
cast than individuals recorded as having voted in the city of 
Milwaukee?
    Mr. Kennedy. If I could address that first I would like 
that opportunity.
    I have been working as Wisconsin's chief election officer 
for 23 years, and I think the disparity quite frankly is poll 
workers' record keeping issues. There is no question that we 
are able to document certain individuals should not have been 
able to vote, but that is not the record keeping issue. The 
felons voting more than once.
    But in Milwaukee we have situations where we issue a number 
as the voter comes in, gives their name on that, but we also 
for election day registration are processing them through a 
separate line. We have noticed poll workers are sometimes not 
sharing that numbering system, we have noticed that absentee 
ballots which we process, a number may not be assigned to that, 
and we had a unique situation in this election in Milwaukee 
because the voter registration system that they use was 
antiquated, the staff was not prepared, and this is going to 
change. I am--I have every confidence.
    Mr. Ney. So what you are saying is the 4500 were live human 
beings? They were not recorded, is that what you are saying?
    Mr. Kennedy. Not properly recorded and did not go through 
the process we have in state law to reconcile that and the 
county did not go through the secondary review process.
    There is no reason why the Milwaukee Journal Sentinel 
should have discovered this two weeks after the election. It 
should have been caught at the polling place on election night. 
It should have been corrected there. We have processes for 
doing that or should have been caught in the Milwaukee County 
board of election commissioner's office.
    Mr. Ney. I will listen to anyone else who has something to 
say on this issue, I think your answer: obviously it is 4,500 
extra votes being dumped in there--that you don't know what 
happened. And the study the newspaper released caused quite a 
debate.
    What you are saying is that it was ``record'' keeping at 
the local level, they did vote; it was just not marked down.
    But the thing that I noted, too, preliminary findings of 
joint task force possible election fraud and this is an 
interesting thing for the future based on the investigation to 
date, the task force has found wide-spread record keeping 
failures and separate areas of voter fraud which could have 
been the one felon.
    This is an interesting statement on the task force. These 
findings impact each other. Simply put, it is hard to prove a 
bank embezzlement if the bank cannot tell how much money was 
there in the first place. Without accurate records, the task 
force will have difficulty proving criminal conduct beyond a 
reasonable doubt in a court of law. With that caveat, the task 
force has made the following specific determinations.
    So what they are saying is fraud, but you don't know if--in 
the first place you don't have the same page information to 
work off of.
    Mr. Kennedy. I think you are right. That record keeping 
would have illustrated the problems we had were limited to a 
handful of felons, a handful of individuals who the process 
quite frankly can't catch at this point without narrow 
investigation, and it is one of our responsibility of election 
officials right up to our office to make sure that the record 
keeping is adhered to because that is what is designed to 
install confidence for the public and the courts.
    Mr. Ney. Would Milwaukee election officials like to comment 
on the future of this.
    Ms. Robinson. Sure. I want to point out to the members of 
this committee that I served as the executive director of the 
Election Committee on an interim basis and during my tenure 
there, I actually after the spring election worked side by side 
with my counterpart at the county, Janice Dunn, and we 
scrutinized very closely the spring election and in fact we 
found similar problems that occurred in the spring election 
with discrepancies in voter counts versus ballots cast even 
though that was a very small election.
    And what I want to point out is what a consistent problem 
among the wards was the voter pink slip. We found that poll 
workers forgot to tear off the pink slip so therefore they used 
the same voter number twice.
    Mr. Ney. I am sorry. What is----
    Ms. Robinson. There is a pink slip that says number 1. So 
in many instances even though this was an extremely small 
election, I had like for instance a polling site that 202 
voters where a poll worker used the duplicate voting number 
twice. They forgot to tear that pink slip off.
    So basically what I am trying to point out is if you look 
at the spring election, we were careful in calling these poll 
workers, looking at every single vote, every single polling 
site, but there was discrepancies and imbalances.
    So it did demonstrate the need that we have some serious 
problems with poll worker training.
    But if you look at the discrepancies that occurred in the 
spring of 2004 versus November and looked at the proportions, 
similar error rates like the error rates actually were not that 
high when you looked at the--the total number of votes, so the 
error rates were way less than like 2 or 3 percent, but 
basically I am just trying to say that we have problems with 
poll worker training and we definitely are committed to 
enhancing our training and also want to point out that I am--I 
abhor any instance of fraud. I think it is horrible. But the 
real problems that occurred in November, 2004, and in the 
spring election again a lot of it was attributed to 
administrative error and errors that definitely need to be 
fixed.
    Mr. Ney. I want to keep on time. We have another panel, so 
I just wanted to ask one brief question.
    With the Help America Vote Act, we gave flexibility and I 
think it is important for training poll workers, and poll 
workers are great background. Carson Hoyer started a college 
program, I started a high school program to get young people 
involved in the election process to help at the polls.
    How did you distribute that, or is HAVA monies for voter 
education being concluded? Each state does it a little bit 
differently. Were you able to do that so you have the 
flexibility to use the money for poll worker education.
    Mr. Kennedy. Basically the state is controlling all of the 
money, almost all of the money under the Help America Vote Act. 
As I said, we set aside 18 million for the statewide voter--
accessible voting equipment. The bulk of the money was set 
aside for the statewide voter registration system because saw 
on the map, we are building from the ground up with 1500 
municipalities that did not have voter registration or any kind 
of system.
    The state has taken the lead in terms of training election 
officials. Our state legislature actually requires the chief 
election inspector to go through a series of training, they set 
aside small amount of money with the Help America Vote Act, 
money came through. We took that over as a result of that.
    Prior to the 2004 election 8,000 poll workers and municipal 
and deputy clerks were trained through the basic training 
program. They are in the process. And we have an administrative 
rule that requires the chief election inspector, the person in 
charge of the polling place, to have six hours of training.
    Mr. Ney. And the state--the Help America Vote Act goes 
through the state and it went down through to poll workers.
    Mr. Kennedy. Well, the state provides the training for the 
poll workers.
    Mr. Ney. So the state is paying for education.
    Mr. Kennedy. The state is paying for it.
    Mr. Ney. California did it in a unique way; there were 
problems with it.
    Mr. Kennedy. That's right. Training the state.
    Mr. Ney. Training other people. So each state, I have not--
this is one issue I have not heard a lot of complaints except 
after the California controversy how they used the money. We 
never told the states how to use the money but we surely 
intended it for poll worker education and voter education, so 
you have things to put up at the polls to tell people their 
rights, provisional balloting for example.
    We would have people that are told, ``Oh, no, you already 
voted.'' This happened in Ohio. And the young man was smart 
enough to say, ``I don't care. I want that ballot. Give it to 
me.''
    And he got the ballot and showed there was improper voting 
in his name. That's also part of the voting education process 
of the voter knowing their rights and being educated.
    So through HAVA, those monies have come down to the local--
--
    Mr. Kennedy. Money has not been distributed to the locals. 
It has been handled by the state.
    Mr. Ney. Do you have access to it?
    Mr. Kennedy. The locals do not have access to it in that 
sense. The state takes the lead on that, and that was done 
quite frankly, we have so many municipalities. To develop a 
formula how to treat it, you end up--we get a bigger bang for 
the buck if the state is handling it.
    Mr. Ney. That is the last question, if you have a response.
    Ms. Robinson. No.
    Mr. Ney. Thank you.
    Ms. Moore. Thank you, Mr. Chair. This is very informative. 
This has been a great panel. The worker bees panel, people who 
get into the nuts and bolts of election.
    It is nice to see all of you again. Mr. Kennedy and Ms. 
Robinson, Edman and Nickolaus.
    I guess the first thing that I guess I want to sort of just 
congratulate all of you for really getting down to the nitty-
gritty, participating on all the task force and really trying 
to come up with good solutions.
    I want to commend you for taking ownership for the 
administrative errors and problems and not try to figure out 
who to blame it on, but really confirming that there just are 
some problems with elections, administration, and I am hearing 
you as a member of Congress that you need the adequate 
resources in order to be able to do your jobs and to do them 
well.
    I was really happy to hear Mr. Kennedy in particular clear 
up the mysterious 7,000, 4600, 4900 votes that we hear about. 
They were largely due to administrative errors.
    Ms. Robinson in talking about how the poll workers did not 
place the appropriate numbers on there, but these were actual 
people who actually had a right to vote.
    But there were administrative errors.
    I guess my question for all of the panel is--are a couple 
of things.
    First of all, how would--it doesn't seem that anyone except 
for Ms. Nickolaus thinks having a voter ID would have cleared 
up any of the--the problems that we faced on election day, that 
having a voter ID would have solved those problems.
    So I am asking you all again what your reaction is to the 
requirement for having a voter ID, and I want it in the context 
of the numbers of people, particularly in the City of 
Milwaukee, who would be disenfranchised were it for such a 
requirement.
    I have mentioned earlier those data that indicates that 
there is a huge disparity between people of color, young 
people, the elderly, who have photo IDs and those who do not.
    And also I want to ask you all about absentee ballots. 
About a quarter of the problems that were found were related to 
absentee balloting, and how would photo IDs and the requirement 
for photo IDs fit in with absentee ballot.
    I can have you all go down the line. First question is all 
of these administrative errors that were found, would photo IDs 
have kept these errors from occurring.
    Ms. Robinson. Well, I--again, I was the chair of the City 
of Milwaukee Election task force and the administrative errors 
that we talked about with regard to discrepancies and vote 
total versus ballots cast, a photo ID would not have addressed 
that problem. Again, that was an administrative error problem.
    Even if you look at the issue with the felons that voted 
illegally, again, I think anyone who voted illegally you need 
to investigate that, but those people used their name.
    So I am not even convinced that a photo ID would have 
helped in that regard because photo IDs don't even note that a 
individual is a felon anyway.
    Ms. Moore. Or if they are a citizen or if they moved six 
times.
    Ms. Robinson. Right.
    Ms. Moore. The last time they voted.
    Ms. Robinson. How many people might be disenfranchised in 
Milwaukee, we did have discussions among the task force about 
the whole issue of disenfranchisement and Milwaukee is probably 
a lot different than some of the districts of some of the other 
members of the congressional panel so there is a concern in 
Milwaukee about disenfranchising voters.
    For instance, Senator Colon actually pointed out some 
statistics about how many Hispanics don't have photo IDs which 
was really high, how many African-Americans, how many women, so 
my concern is again that I think fraud is horrible, but I don't 
necessarily think it is wise to institute a policy whereby 
basically you are punishing the innocent for the crimes of the 
guilty, and there were not many guilty people that we found to 
have committed fraud in Milwaukee on election day.
    Ms. Moore. Ms. Nickolaus, with your permission.
    Ms. Nickolaus. When I was referring to voter ID being able 
to help, I was not stating that all of the problems that we had 
in Wisconsin elections would be rectified by showing a photo 
ID. I was stating that there are some that would be rectified.
    The idea that somebody is voting in your place, somebody 
that voted for someone deceased. It is also--a voter ID or 
photo ID would also help a poll worker that when some of them 
are having trouble hearing, if I say Nickolaus, they might be 
looking down the list and pick up Nicholas in a different area. 
Because we spell our names a little differently, looking at the 
photo ID, they can--they have something in front of them to 
match the name up. That's another area that would help.
    Ms. Moore. So I am Mary Smith and there are zillions of 
Mary Smiths. I present you with a photo ID. Does that tell you 
anything? When you consider the scale, the hundreds the 275,000 
people that could be disenfranchised in the state, do you think 
it is worth it for that poll worker to have Mary Smith's 
driver's license in front of you which doesn't tell you whether 
she is a citizen, doesn't tell you whether she has voted in her 
home state of Ohio, doesn't tell you anything except that she 
has passed the driver's test.
    Ms. Nickolaus. I think what it will help to be able to 
prosecute. I quoted the district attorney stating that if--if a 
person were to vote in one place and vote in another place 
because they didn't have to prove who they were, it could have 
been two different people who voted for me saying that----
    Ms. Moore. I don't want to be argumentative, but I want to 
point out that we--we would be able to prosecute one person 
more efficiently, but on balance, there is 275,000 people in 
the state that don't have a photo ID, and that's the point I am 
trying to make. Thank you very much.
    Mr. Ney. Time has expired. Mr. Ehlers.
    Mr. Ehlers. Thank you Mr. Chairman.
    Ms. Edman. I would like to respond to the Congresswoman 
Moore if I could.
    Mr. Ney. We have exceeded the time, so respond, but stop 
Mr. Ehlers' time with the clock.
    Ms. Edman. I recently retired from the Milwaukee Police 
Department after twenty-eight years. We have seven police 
districts, three shifts at each district. Each shift does 
things differently, so we have 21 ways of doing things.
    They do things differently because of personalities, people 
like to do things differently.
    In the City of Milwaukee we have 202 polling sites. If you 
divide that into the 4,900 votes that we are concerned about, 
that's 24 votes per polling site.
    Some of our poll workers have very strong personalities and 
they like to do things their way. That created a lot of the 
problems that we had in the 2004 election. In future elections, 
they will have to follow the procedures in place because we 
won't accept anything less than that.
    Mr. Ney. Mr. Ehlers.
    Mr. Ehlers. Perhaps you should hire ex-military people who 
know how to follow rules.
    Just a quick question for Mr. Kennedy. Did I understand you 
correctly that in yellow areas, there is no voter registration 
of any sort.
    Mr. Kennedy. That's correct. Since the state was created in 
1848, there has been no voter registration in those 
municipalities. They are all populations of less than 5,000. 
Very similar to North Dakota. You walk into the polling place, 
they either know you or recognize you.
    If they don't, they may ask questions, and they are 
required to ask for identification if they don't.
    Mr. Ehlers. I am surprised to hear that in a state as 
advanced as Wisconsin.
    Mr. Kennedy. I think that's one of the unique factors as we 
implement voter registration and talk about the uniformity 
issues identified through the various studies.
    Mr. Ehlers. Ms. Robinson, your comment about civil rights, 
we have all worked hard for and certainly one of the civil 
rights is every citizen has the right to vote, but the other 
part that we worry about in the Congress is not only that every 
single person has the right to vote but to have the assurance 
that no one else is voting improperly or illegally, which is a 
civil right as well, and that their vote not be diluted by 
that.
    And I just wanted to get that on the record because I think 
that is equally important.
    I am still troubled, a lot has been made by the voter ID. 
Wisconsin has to sort that out. If you are really worried about 
verifying or the difficulty getting people to get voter ID, it 
would be simple to set up now that we have electronic cameras, 
set them up in the voting place and take a picture of everyone 
who comes in to vote along with the address that they have 
given and so forth. At least you have a record then. If you 
don't want to do it before then.
    You can certainly have a record and also use that to create 
a voter ID card which you can hand to people on the way out.
    I happen to be a physicist. I could design and build that 
system very simply and very cheaply if you really want to.
    That doesn't take care of absentees, but it solves the 
problems that we have been talking about here.
    I am not as worried about that, and I am not as worried 
about the felons voting. I am very worried about the 7,000 
votes greater than the number of people who were signed in as 
voting and another 1,300 or some people who have created 
similar problem.
    I am worried about the number of cards that were not mailed 
which the law says have to be mailed after someone has 
registered same day registration, and cards were filled out 
with addresses that don't even exist, 1300 of them. That's a 
lot.
    I am worried about the return cards that were sent back 
with no such address. 3,600. Don't worry about the felons, 
that's only 98 or whatever. 3,600 people voted and gave an 
address which doesn't exist, and I am worried about the fact 
that 3,600 were not turned over to the D.A.
    I am also worried that many of those turned over to the 
D.A. have not been acted upon. I understand it is an 
overwhelming task, and I am not here to criticize Milwaukee or 
Wisconsin or anything, but at the politest rule I can think it 
is extremely sloppy work, and I don't think you are going to 
solve those problems without some very firm steps on how you 
operate the elections.
    I don't really have a question, but I certainly would be 
happy to answer any comments you have.
    Mr. Kennedy. I would have one comment to that. I think you 
indicated it is very sloppy work and I think Ms. Edman made the 
comment it is not going to be tolerated, and I think she comes 
from a background send a message in Milwaukee and it is 
important as election officials to send a message that we are 
the ones that are responsible for people's comfort level in the 
integrity of the process, and that means that we need to be 
sticklers for detail when it comes to that and I think that is 
an important message that has to come and it comes from our 
local election officials and it comes from the state election 
officials.
    Mr. Ehlers. I suggest you carry your weapon or sidearm. Mr. 
Kennedy, just a quick question for you. I started to read 
between the lines of your testimony and I get the impression 
that the Wisconsin state election board and you as executive 
director don't have a great deal of authority or have not been 
given great authority under the constitution and law to deal 
with enforcing the restrictions on the Help America Vote 
amendment. Am I misreading you or is that part of the problem?
    Mr. Kennedy. We have the authority to order election 
officials to conform with law. We have the authority to train 
them on what the legal requirements are. We don't--we have 
civil enforcement authority for campaign finance which we have 
been doing for 30 years but we do not have any civil 
enforcement authority.
    We do rely quite heavily on the moral suasion at our 
office, and we quite frankly rely on the fact that we have a 
very dedicated group of local election officials who by far are 
committed to that and they come to our presentation and they 
come to us with suggestions.
    Our county clerks don't have direct responsibility for 
administering license, but they are ears in the process by and 
far. That is one of the reasons why Ms. Nicholaus is here.
    And I think people definitely can take some confidence that 
Milwaukee is going to have a much tighter ship based on my 
experience working with the folks that are there now.
    Mr. Ehlers. It is not just the city. I understand the 
county canvas did not even look over the results. Do you have 
enforcement authority over the counties?
    Mr. Kennedy. The only enforcement authority we have would 
be we can order them to conform to the conduct of law. In terms 
of punishment, we don't have much in terms of that.
    I think the action that led to the county looking at that 
publicly described event when the county revealed in the 
special committee that they did not do that activity for the 
city. They did it for everybody else and not the city and they 
could not explain it and they promptly changed their behavior 
as a result of that when I raised a question why they have not 
set a hearing on it.
    Mr. Ehlers. Well, maybe we need Mr. Green's law after all.
    Ms. Robinson. I wanted to submit the official report of the 
election task force for the record and I appreciate your 
concerns and we are taking those seriously.
    In fact, every concern you raised is noted in this report, 
and we have had numerous recommendations for reforming our 
processes and practices at both the administrative and 
legislative level. For the record, I want to put this on the 
record it reflects we are serious about all those issues.
    Mr. Ehlers. Let me just make clear, I am not criticizing 
any one of you. You did not have the responsibility in this 
one, but I just wanted to give you my point of view on that.
    Mr. Ney. Mr. Green.
    Mr. Green. Thank you. And Ms. Robinson, I think--what you 
are hearing--I think--Milwaukee is a great city this is a great 
state and we do have great progressive traditions. I think part 
of the concern is if it can happen in Milwaukee, it can happen 
anywhere in the country. That's why you hear such a focus on 
Milwaukee obviously with the history of the elections being so 
close as well.
    Mr. Chairman, I want to apologize in advance, as you know, 
I have a prior commitment and may not be able to stay for the 
questions for the third panel.
    As a result I would like to return one more time to the 
issue of photo ID. Obviously in many ways, it is the most 
controversial part of our discussion today.
    Remind folks nearly 70 percent of the people in state, 
statewide, all parts of the state favor a photo ID requirement 
including 60 percent right here in the City of Milwaukee and 60 
percent in the City of Madison.
    So there is widespread for this because I think people do 
see it as the first step in returning some faith to the 
election process.
    Now Ms. Nicholaus, in your written testimony you made some 
reference to one of the reasons for photo ID requirement. You 
said as an ex-election administrator it was difficult to answer 
the questions of a distraught voter who calls after going to 
vote and has found that someone has voted for her or someone 
notices his deceased wife was marked as having voted.
    Those are the obvious concrete ways, but it would seem to 
me it is more than that, and Ms. Robinson made a reference a 
few moments ago about concerns over changes that might punish 
the innocent. But Ms. Nicholaus, aren't you concerned when 
people read stories of others having voted that are not legally 
entitled to vote, don't you think that they're concerned their 
vote gets canceled out. So election fraud, election 
irregularities whether or not they arise to the level of fraud 
or the level of being prosecuted, any time someone votes who 
should not have voted, they have wiped out the vote of an 
innocent person, an innocent voter somewhere else.
    Isn't that the real reason it is so supported in your 
council?
    Ms. Nickolaus. Sure.
    Mr. Green. It seems to me when we talk about the rights of 
the innocent which we should, which should be our paramount 
concern, we have to be concerned about the rights of that 
innocent voter who does everything that we have asked he or she 
to do, goes to the polls fully believing that his or her vote 
is going to count, that they are making a difference in 
election, and then they go home and read of felons illegally 
voting, other people illegally voting, and then they say gee, I 
stood in line for a hour, I went to the effort, I am trying to 
support in democracy, I guess my vote doesn't count because so 
and so voted who shouldn't have voted.
    So it seems to me as we talk about the innocent here, we 
also have to remember the innocent voter who gets frustrated 
with the process because they read their vote has been canceled 
out who is not innocent.
    Ms. Edman, I think that we are all optimistic about what 
will happen in Milwaukee in the years ahead as Milwaukee tries 
to make changes to improve what we have all seen. Let me ask 
you this real quickly.
    You are fairly new on the scene in this process of election 
administration. What was your biggest surprise when you stepped 
into your appointed post of out of what you found in the 
current situation in Milwaukee with the elections?
    Ms. Edman. I think the amount of paperwork involved in the 
elections, the massive registration--number of registration 
cards and the--just the amount of work that is involved. People 
don't understand. They don't have a clue until they have 
experienced it.
    Mr. Green. In the Vote Act, and again obviously we are all 
focussing on the photo ID requirement, one of the things I 
would commend to you and everyone here, I agree with you in 
terms of the paperwork challenges and the administrative 
challenges and the challenges for poll workers to implement the 
requirements.
    We worked hard to make sure that there is federal grant 
money available and we require the training of poll workers and 
require helping out states to administer the training of poll 
workers.
    Having these record high turnouts is a great thing, but 
obviously it puts a strain on the system and I think we 
recognize that so we are trying to take steps to make sure the 
funds are available in the future. Some would argue that it is 
not a federal issue. Those days are gone.
    Obviously people in Minnesota have to care about what goes 
on in Wisconsin because the future of the presidency may be in 
doubt.
    So I think you will see that Members of Congress on both 
sides of the aisle will do everything we can to make sure that 
training does take place and that we step up to the plate to 
try to make some of the funds available because it is a real 
challenge. We recognize that.
    Mr. Ney. And I would note for Mr. Green, and I realize he 
has another commitment, the third panel at the end of this 
hearing, we will request the member to keep open the record for 
30 days so we can ask questions or insert additional materials.
    Mr. Green. Thank you.
    Mr. Ney. I am now going to go on to the third panel, but I 
wanted to point out that the Milwaukee Journal Sentinel 
recently reported that 3,600 verification cards were returned 
as undeliverable . . . these are cards sent to verify same day 
registrations and 1,300 could not be sent at all. This is not 
the ``over vote'' we spoke about earlier today, but 4,900 
ballots that we learned could not be verified after they were 
already counted.
    I will follow up with a question on that. I just want to 
conclude by saying I think it is productive for us.
    We get questioned all the time about the Help America Vote 
Act. Should we do more? Should we mandate the paper trail? 
Should we mandate photo ID? I think the Carter-Baker 
Commission, something we talked about today, is helpful and I 
think you can see from the tone of Mr. Green's request to come 
here that it is helpful to have member participation. As we 
look down the road of elections, we don't want to federalize 
them, but we do have to have some type of standardization on 
certain issues.
    But at the end of the day, my state and your great state, 
whatever state in this nation, there are certain things that 
the federal government isn't able to solve.
    If there were lines, should the Congress say, ``Well, in 
precinct B in Belmont County, Ohio, you are to put in three 
more machines, but in Milwaukee, precinct 4, you need to take 
away a machine.'' I don't think we can do that.
    A lot of the information we learn in these elections is 
helpful, and some of the problems will be solved at the local 
level, but again, some of it will be solved with the federal 
government, and has to be addressed by the federal government.
    And in situations like the last two elections, if these 
were blow out elections and were not close, we would all be 
sitting here talking about things in the country. But it was 
productive having the close elections to look at our whole 
election system, even with flaws and mistakes here.
    Ms. Moore. Mr. Chairman, I do think the issue that you just 
raised really deserves a quick response. You talked about the 
3600 undeliverables. I think a lot of that has to do with the--
the class or status of the mail and perhaps they can answer.
    For example, if it is Layton Street instead of Layton 
Boulevard, that would be undeliverable.
    If you give an address of an apartment building and you 
don't put apartment 306 on it, that will be undeliverable.
    Am I wrong about that.
    Mr. Ney. I want to move on with the third panel. I will put 
it in writing. I am going to put it in writing. If you would 
like to put that----
    Ms. Moore. It deserves an answer.
    Mr. Kennedy. My quick comment is legislative counsel made 
it one of its recommendations that poll workers ensure that the 
election day registration forms are legible and that is an 
issue. They have to provide identification that----
    Mr. Ney. Don't ask me to fill one out.
    Mr. Kennedy. This is the poll worker's responsibility. 
Election they have to provide identification and opportunity to 
match the information with that.
    And that's again something where from my observations I 
don't think we have spent the attention to detail that needs to 
be done at the polling place and that may require more workers.
    Mr. Ney. Again, I don't want to take away the third panel's 
time. In small areas, small towns where you are dealing with 
300 people, people know where each other are from, who they 
are, who your dad and mom are and where you got your car loans 
from.
    But larger areas, of course, this comes more into question 
where people don't know each other.
    Mr. Kennedy. I will tell you that county seat of Trepelleau 
County, there are no street addresses. Everyone has a P.O. Box. 
They know where they live, but their mailing address is all 
P.O. Box.
    Mr. Ney. Any other----
    Ms. Robinson. Just again, if you get a chance to review the 
election task force report, I think it will be helpful because 
it does highlight all the problems and provides solutions to 
the problems that occurred including the issues you just raised 
about the cards that were--the 1400 cards or whatever.
    Ms. Edman. I will make one additional comment. Kevin spoke 
about the errors that the poll makers make, the fact that the 
cards are illegible. Now, you come to when a data clerk enters 
these addresses, there is another set of errors that could 
occur in the processing of registration cards, so these are 
areas where errors could occur.
    You are talking 77,000 registration cards with errors.
    We don't know if they are errors or people that don't live 
at the locations. So there are many things going on we have to 
look at.
    Mr. Ney. Just to correct the record, noncitizens with a 
green card should have the right to drive in the United States, 
illegal aliens do not have the right. I want to thank the panel 
for your time.
    We will move on to panel 3, Kay Coles James, member of the 
Carter-Baker Commission on Federal Election Reform. We have 
Andrea Kaminski, executive director of League Of Women Voters 
Of Wisconsin, I am sorry, we don't have name tags. Jeff 
Erlanger, community activist; Matt O'Neill, Attorney, Friebert, 
Finerty, and St. John, and Don Millis, attorney, Michael, Best, 
and Friedrich, LLP. Thank you and welcome.
    We will start with Kay Coles James.

   STATEMENT OF KAY COLES JAMES, CARTER/BAKER COMMISSION ON 
                    FEDERAL ELECTION REFORM

    Ms. Coles James. Good morning, Mr. Chairman, and thank you 
for the opportunity to be here. It was a privilege and I would 
like to submit my written statement for the record.
    Mr. Ney. Without objection.
    Ms. Coles James. For the sake of brevity it was a privilege 
serving on the Carter/Baker Commission for me on several 
levels. First of all, I grew up in Richmond, Virginia, at a 
time when voting was a risky endeavor in some parts of the 
south. My family was very involved in the civil rights struggle 
and remain so today.
    For me, it is indeed a privilege to be a part of a 
commission whose charge was to make sure that the voting 
process both had integrity and access for a lot of the American 
population.
    While I have presented to the committee a resume that lists 
several things, I want to highlight two things that were 
particularly germane.
    One, when I was director of the United States office of 
personnel management, it came as a surprise to many people that 
that particular job had a great deal to do with voting and with 
protecting the access for voting for several Americans. I was 
responsible for the portion of the voting rights act that 
authorized OPM to both train and provide observers to certain 
political subdivisions and other political units as determined 
by the attorney general, and also my service on this commission 
that I already mentioned, both I think provides some background 
for my particular interest in this subject.
    While Wisconsin has its own unique set of challenges, I can 
assure you based on the work of our commission they are not 
that unique for things that we see going on all around the 
country.
    I would also like to say that while the Carter/Baker 
Commission addressed a whole host of issues, I want to focus on 
one that seems to be the most controversial here today, and 
that is on the voter ID portion of that.
    I would like to, sort of I guess, stand the issue on its 
head. Coming out of my perspective and my background what was 
important to me was we look at making sure that every American 
who had the opportunity to vote, could do that and that their 
vote in fact counted.
    I would--I would ask you to look at the title of our 
commission report which was Building Confidence In U.S. 
Elections, and that is why after a great deal of discussion and 
a great deal of debate the members of this commission came to a 
conclusion that a voter identification was in fact necessary 
and we recommended that to the American people.
    To assure that the requirement of providing identification 
does not prevent, however, any eligible voter from 
participating, it was important to us that the ID be free of 
charge to all voters and that it also be accessible.
    The requirement of a photo ID combined with accurate State 
voter rolls, we believe, will prevent most opportunities for 
fraud and will increase voters confidence in the outcome of the 
election.
    And while I know there is a great deal of debate whether 
there is fraud or inconsistencies or inaccuracies, sort of the 
sense of the commission was never attribute malice where you 
could easily attribute and then fill in the blank. If it is 
lack of training, if it is lack of ability for funds, whatever 
the reason is, our ultimate goal was to increase the confidence 
in the system without delaying or pointing fingers at 
individuals.
    Some have mistakenly suggested that requiring voters to use 
ID would be a poll tax, and I want to say for the record that 
we believed it to be nothing of the sort.
    The vast majority already have a form of the required voter 
ID and others should be able to easily obtain the ID. States 
should take steps to assure the opportunity for all voters to 
obtain said ID.
    We have heard some testimony today about the fact that it 
would be cumbersome for students or poor people or minorities 
and a burden there, and quite frankly from my perspective, the 
desire to have a voter ID is in fact to assure that those very 
same people when they present themselves at the polling place 
are not denied the access to vote.
    So I think we all have the same goal in mind and we may get 
it--get at it from very different perspectives.
    My friend on the Commission, former Democratic congressman 
Lee Hamilton has noted that the recommendation of a photo ID 
will increase the confidence of the voters especially 
minorities and those low income voters that we have talked 
about.
    In the post 9/11 society where ID is required to enter a 
federal building, to cash a check, to board a plane, to take 
the SAT or to do most anything, I don't think it is an undue 
burden to ask all American citizens to have that sort of ID.
    As a matter of fact in most emerging democracies it is 
really a badge of honor that one has acquired such an ID and is 
participating in the process.
    I think it is just good public policy, and I would also say 
that our commission was so diverse in its perspectives, and 
that you had strong advocates that were not shrinking violets 
and managed to express their opinion, yet we came together 
after debating this issue quite a bit and I would note that 
President Carter, Lee Hamilton, both well-known democrats and 
civil rights activists, like former Atlanta Mayor Andrew Young, 
as well as people that we all would recognize like Juan 
Williams all support voter ID, but maybe for different reasons 
or different perspectives but I think we all want the same 
thing and that is a process we all feel good about that 
guarantees access and the integrity and restores to the 
American people the confidence of our voting process.
    Mr. Ney. Thank you.
    [The statement of Ms. Coles James follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Ney. Ms. Kaminski.

  STATEMENT OF ANDREA KAMINSKI, EXECUTIVE DIRECTOR, LEAGUE OF 
                   WOMEN VOTERS OF WISCONSIN

    Ms. Kaminski. Thank you, Chairman Ney, for inviting me to 
appear before you. My name is Andrea Kaminski and I am 
executive director, League of Women Voters of Wisconsin. I 
brought copies of my testimony as requested and I submit them 
to the committee.
    Mr. Ney. Without objection.
    Ms. Kaminski. The Wisconsin league is proud of our state's 
open and fair election process as well as our high voter 
turnout in the 2004 election. We have no doubt that the two 
were related.
    Based on our long-standing principle that every citizen 
should be protected in the right to vote, we support 
legislation that improves accessibility and ease for voting for 
all eligible citizens and promotes voter confidence in the 
integrity of our election process.
    The League's support of free and fair elections goes back 
to our founding in 1920. In the late 1970s, we supported the 
Wisconsin legislature's enactment of major election reform 
including the establishment of registration at the polls and 
the definition of what kind of identification is needed for 
registration.
    We will continue to fight to protect citizens' rights to 
participate in government and to oppose any major threats to 
our constitutional right to vote.
    We are not sure why the committee has come to Milwaukee to 
hold this hearing when Milwaukee's 2004 election already has 
been heavily scrutinized by local, state, and federal agencies 
as well as by the media.
    The findings of these investigations show that virtually 
all of the discrepancies were the result of the inevitable 
incidence of human error on a hectic day.
    The League has opposed the efforts of several sessions in 
the Wisconsin legislature to require all citizens to show a 
government issued photo identification card in order to vote. 
Proponents of voter ID base their position on the assertion 
that it would reduce fraud and somehow keep felons from voting.
    The League agrees it is imperative to reduce fraud but 
voter ID does nothing to address the problem. It certainly 
would not have prevented the felons who voted in their own 
names from casting a ballot in Wisconsin last November.
    More important, the proposed Wisconsin voter ID bill places 
an unfair burden on certain groups of people including the 
elderly, low income, minorities, students, homeless and 
disabled, the very people for whom it is most difficult to take 
off work, get transportation, go to the DMV and wait in line, 
and apply for the documentation.
    At a hearing earlier this year, a disabled woman in 
Madison, where services are about as good as you are going to 
get in Wisconsin, described what she would have to go through 
to get to the DMV and get identification and it was a major 
undertaking.
    With all due respect, a photo ID is not definitive proof of 
address, nor does it tell us if someone is a felon who may not 
vote or, for that matter, a former felon whose voting rights 
have been restored.
    The statewide registration lists that will be implemented 
in 2006 will be a far more effective and fair tool for 
minimizing abuse of the system. So, voter ID would do nothing 
to protect the integrity of Wisconsin elections and it would 
restrict voting particularly by certain groups of people. 
That's a net loss for democracy.
    In a recent report, the Wisconsin legislative audit bureau 
recommended that the state elections board use its existing 
authority to improve and enforce the election rules that ensure 
a smooth and fair election process.
    The bureau's findings highlight the need for a more uniform 
system as well as adequate resources and requirements to 
implement existing rules and policies. The report says, quote, 
``the system alone will not be sufficient if municipal clerks 
and other local officials do not detect and prevent common data 
entry errors, appropriately revise and update voter 
registration and information, and follow uniform procedures for 
identifying improper registrars and ineligible voters,'' end 
quote.
    Poll workers and election officials do a remarkable and 
vitally important job under great stress, but the system is 
failing them just as it is failing the voters. Let's focus on 
the real problem at hand, the need for more resources for 
carrying out our elections.
    There are dozens of measures being reviewed by senator 
Leibham's special committee here in Wisconsin that promise 
positive election reform. The League supports those that 
specifically improve accessibility and ease of voting for all 
eligible citizens. We heartily support measures that put more 
workers at the polls on election day and require uniform 
standards for the training of all poll workers and election 
officials.
    We strongly believe Congress should provide substantial new 
and ongoing funding for election improvements in the states. To 
sum up, last week in Georgia, U.S. District Judge Harold Murphy 
granted an injunction on a new voter ID law in that state 
knowing it would do nothing to address voter fraud.
    He said he had great respect for the Georgia legislature 
but he added ``the Court, however, simply has more respect for 
the constitution,'' end quote.
    Let's not compromise anyone's constitutional right to vote 
with a misguided attempt to fix a system that is not broken. 
Thank you.
    Mr. Ney. Thank you.
    [The statement of Ms. Kaminski follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Ney. Mr. Erlanger.

         STATEMENT OF JEFF ERLANGER, COMMUNITY ACTIVIST

    Mr. Erlanger. Thank you for the opportunity to come to 
speak. Today I am here--as you said I am a community activist. 
My specific things group that I am here to speak on behalf of 
are the disabled.
    I have served on the City of Madison committee people with 
disabilities and their ADA transit oversight subcommittee.
    My understanding is while the state proposal may require 
disabled people have to have voter ID, it is my understanding 
that the federal proposal actually exempts people with 
disabilities. First of all, am I correct about that.
    Mr. Ney. Well, the Help America Vote Act just requires the 
last four digits of your social security number. You can use a 
photo ID or you can use a bank slip statement. So it doesn't--
    Mr. Erlanger. That's for everybody. My comments will be a 
little different.
    Mr. Ney. I am sorry. The current law that we wrote the Help 
America Vote Act just requires either a photo, the last four 
digits of the Social Security number, bank slip, or water 
utility slip, for first time registrants only, not for existing 
voters.
    And so what you are talking about is Mr. Green's act.
    Mr. Erlanger. Right.
    Mr. Ney. As introduced.
    Mr. Erlanger. Right.
    Mr. Ney. I am sorry.
    Mr. Erlanger. So that's what I am here for today. Instead 
of saying I am for or against it, I wanted to ask the committee 
some questions for you to think about.
    One is why would people with disabilities be exempt from 
Mark Green's proposal? Is it because we might find it hard to 
get to the DMV to get our voter ID? Is it because we might not 
be able to pay for it? Or is it so that we can more on our own 
independently go and vote without having someone go into our 
wallet or something to get out a ID.
    In any case assuming it is for logistical purposes or for 
our economic purposes, I want to remind you all there are other 
people out there besides the disabled that have a hard time 
getting places.
    The poor may not have cars, they may have to work all day 
and not be able to make it to the polls to go vote, for 
whatever reason.
    Students may not be able to for the same reason be able to 
go and change their--and change their address every time they 
move. They might find it hard or have just moved to campus and 
find out in a week or 10 days that they have to--that there is 
an election so they have to come quickly and get their address 
changed.
    So I want to remind you that there are more people from 
disability that might find it hard to get there.
    I also want to remind people that not all people with 
disabilities are honest so just because we are disabled doesn't 
mean that we might not go and commit fraud and as someone 
reminded me, that doesn't stop someone from finding a 
wheelchair to just wheel into the polling place and say they 
are disabled so they don't have to show a voter ID.
    So I think if we are going to exempt people with 
disabilities we have to find a way to exempt other people who 
may be in similar situations.
    Also I believe that the voter ID should be free. If you are 
going to ask people to constantly go and get it updated and you 
are going to charge them, to me that is a poll tax. You might 
not call it a poll tax, well, you need the ID, you might find a 
way to spin it, if you are requiring them to pay for it in 
order to vote, it is a poll tax.
    I ran as I said in my written statement, I ran for city 
council in Madison in 2003 and 10 percent of the people in my 
district voted. Only 10 percent. I don't think it is just 
because they were not impressed with me and my opponent who 
eventually won.
    In 2001 it was actually less than 10 percent who showed up 
to vote and I was not in the race so nothing to do with me.
    So I don't think, while I am all for avoiding fraud, I 
don't think our problem is trying to get people--is trying to 
stop people from voting. It is trying to get more people to 
vote, and to do that we need to not increase barriers but 
reduce the barriers.
    Mr. Ney. Thank you.
    Mr. Erlanger. So I thank you for your time.
    [The statement of Mr. Erlanger follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Ney. In response to your question, it is not my piece 
of legislation, but it is in the Committee. Just so you know, I 
have tended to not act upon a lot of the legislation until HAVA 
is completely implemented unless there is something that really 
stands out in 2006 and that's one of the reasons we are here 
today as an investigatory body--to learn what we can do or 
maybe can't do, and certain things are going to have to be 
locally taken care of.
    I appreciate your testimony quite a lot.
    Mr. O'Neill.

 STATEMENT OF MATT O'NEILL, ATTORNEY, FRIEBERT, FINERTY & ST. 
                              JOHN

    Mr. O'Neill. Thank you Chairman Ney, Congressman Ehlers, 
Congressman Moore, I appreciate the opportunity to address the 
committee today.
    I am an attorney in Milwaukee and last year 2004 I served 
as deputy state counsel for the Kerry Edwards' campaign.
    In that capacity my primary job was to help train over 700 
lawyers to observe the polls on election day and to help voters 
exercise their constitutional right to vote.
    Our primary focus when we trained our attorneys to work at 
the polls was to ensure that every eligible and qualified voter 
that showed up at a poll on election day was allowed to cast 
their ballot.
    We had our attorneys in the field fill out incident reports 
noting anything that happened on election day that appeared 
unusual, notable, interesting, anything that might be worth 
looking at later on after the election. We then analyzed those 
thousands of incidents that were reported by the attorneys, put 
together a report summarizing what we learned from our 
attorneys in the field, and I would like to--I don't know if 
this had been submitted previously, but I would like to get 
that to the committee.
    Mr. Ney. Without objection it is part of the record.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. O'Neill. After looking at all the incident reports 
reflecting back with our experience with the election, there 
were four major problems with the election process in 2004 in 
Milwaukee. The first and major problem was simply the large 
turnout of 76 percent statewide, and Milwaukee was right in 
that ballpark, and frankly, that turnout simply overwhelmed the 
election volunteers that take care of our elections. 
Understand, every four years we have this massive turnout and 
in between there are elections that are nowhere near this size, 
and we do not increase with any amount that we need to the 
number of people working at those high turnout elections and 
they were overwhelmed with the tasks at hand.
    Second, we had problems in the City of Milwaukee 
specifically with the preelection registration process and that 
ended up with the City of Milwaukee having, I think, about 
eight boxes of unprocessed registration cards that were 
properly filled out, people believed that they were registered 
and yet we found out the day before the election that these 
eight boxes, that were not going to be at the polls and those 
individual people were not going to be on the local poll list.
    As a resident of Milwaukee, I personally sued the City of 
Milwaukee Elections Commission and the Commissioner, and I was 
able to work with a member of Mr. Millis' firm and Kevin 
Kennedy with the Election Board that night before the election 
to hammer out a procedure by which those people, if they showed 
up, we actually were able to facilitate getting the physical 
registration cards to each of the polling places so they could 
check, I registered. You are not on the list they could check 
and find the cards.
    Another problem that was prevalent and came up primarily at 
the end of the day is with the absentee voting process in 
Wisconsin. There was testimony before about what needs to be 
changed, and we found at the end of the day there was mass 
confusion about how the absentee ballots were to be counted, 
how they were to be processed.
    On the envelopes a lot of people would write their address 
which was not the address at which they were registered, and 
where they addressed it was a problem finding them on the list.
    The fourth problem we found were Republican efforts to 
monitor the election ended up, in our view to be suppressive of 
the ability of people to vote for citizens of Milwaukee.
    I want to focus on that.
    The primary aspects we observed of the Republican efforts 
that ended up suppressing the vote in our opinion in very 
targeted wards in the City of Milwaukee and other urban areas 
and student areas, the Republicans placed at least one person 
directly behind the election officials and had them standing 
there with Palm Pilots or other kinds of Blackberrys and what 
they would do is look at the voters, and after they stated 
their names, they would punch them in and look them up and 
down.
    And I know that during the middle of election day, my wife 
called and said she felt intimidated when she faced that 
particular effort. I would like to submit also for the record 
one of our incident reports from an attorney Eric Straub who 
reports about some very, very aggressive observation efforts by 
an attorney from Michigan by the name of Perry Christy who is 
then joined by State Senator Tom Reynolds and I would like to 
submit that. It shows what was going on on the ground.
    Mr. Ney. Without objection.
    [The exhibit follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. O'Neill. Part of the things that happened at all of 
these polling places were people walking around in these orange 
T-shirts that say I am a ``HAVA Volunteer.''
    I know Chairman Ney might want to have a copy of this, but 
it is actually Mr. Kennedy's particular shirt that he loaned to 
me.
    Mr. Ney. What was this?
    Mr. O'Neill. This was a T-shirt, Individuals at the polling 
places that were wearing these ``HAVA Volunteer'' bright orange 
T-shirts, and we found out from our volunteers that these 
people were actually being paid to wear the T-shirts, and we 
found out that many of them knew very little about HAVA. With 
all due respect, HAVA in the last election had very little 
impact on Wisconsin. It was only those people who had mailed in 
their registration and were voting for the first time in a 
presidential election in Wisconsin that it had any impact on.
    Other problems we had were towards--Republican volunteers 
voting up and down the lines having interaction with voters 
talking about whether people were on the list or not, 
challenging the election authorities in the way they manage the 
business, using the challenge process. In sum I just wanted to 
bring to the Committee's attention, there was another 
particular item that was very troublesome in the past election 
cycle here, and that was the efforts, and I know what I hear 
from my Republican colleagues that they were there trying to 
fair it out and prevent fraud, but I think they were very over 
aggressive and overzealous and I believe it suppressed the 
right of citizens of the City of Milwaukee to vote.
    Mr. Ney. Thank you.
    [The statement of Mr. O'Neill follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
     STATEMENT OF DON MILLIS, ATTORNEY, MICHAEL, BEST, AND 
                         FRIEDRICH, LLP

    Mr. Millis. Mr. Chairman, members, thank you for this 
opportunity. I have never had the opportunity to testify before 
this committee before. However, I have testified before 
committees on which Representative Moore has sat, and I have 
enjoyed every experience and this will go just as smoothly.
    I am Attorney Don Millis and I am a lawyer in private 
practice in Madison, Wisconsin. For four years, I served on the 
State Elections Board. From time to time, I get involved in 
representing people in election-related disputes; don't try to 
do it very often as it doesn't pay very well.
    Wisconsin has a reputation for clean government. We also 
have a reputation for encouraging voter participation. We were 
among the first states to have primary elections and the open 
primary. We have election-day registration. I think those are 
all things we can be proud of. Those are the steps we've taken 
to promote voting in Wisconsin.
    Our clean reputation has taken it on the chin of late. 
There have been scandals involving politicians in Madison and 
what not and this is not good for anyone. I think as damaging 
as those have been, have been the accusations or the talk of 
voter fraud in the last three November elections. I think these 
are damaging to all of us, and I think there are two ways it 
hurts our democracy.
    The first is the obvious. It may actually have changed the 
results of some elections. If someone were to ask me do I think 
the results in any election would have changed, I would say I 
don't think so.
    But the problem--the fact that I can't say for sure--gets 
us to the second problem, that is the perception problem. There 
is a wide perception that things have not been on the up and up 
and may have caused problems.
    I think one of the most important things that a democratic 
government does is to conduct elections, and I think if we are 
going to, not only one, avoid the actual fraud and avoid change 
of election results and, two, enhance people's confidence in 
the electoral result, we are going to have to take many steps.
    After the 2000 election, when I was still on the Elections 
Board, we started the ball rolling in a variety of ways. First, 
we started by outlawing punch-card ballots. No more hanging 
chads in Wisconsin. And we also had a series of proposals that 
some of us presented to the Elections Board that did not go 
very far.
    Statewide voter registration we would not have but for 
HAVA, but we also talked about photo IDs. It has become of the 
things we are talking about the most, but I think there are 
other things that should be considered.
    I think one of the things Mr. O'Neill mentioned is we have 
to have more machines in polling places, we have to accommodate 
large groups. I think we should strive for a national standard 
that no one should wait in line for more than 20 minutes to 
vote. Long lines do as much as anything to depress a voter 
turnout. But nevertheless we are here and photo IDs seem to be 
the thing that we are talking about. I guess I would like to 
make a few observations about this.
    I think that there have been discussion about the fact that 
there were very few convictions, actual cases of proven voter 
fraud. There is a special prosecutor who is going to file a 
report in Washington and whether or not certain people are 
indicted or certain people are convicted, a certain segment of 
society is going to believe that certain administration 
officials were guilty.
    I don't know whether they are guilty or not, but the fact 
is in the same way that the proof problems exist in any 
investigation, there are proof problems in conduct of 
elections. And the fact that a prosecutor cannot prove or be 
confident he or she can prove beyond a reasonable doubt that 
fraud existed, doesn't mean fraud didn't exist.
    But more importantly is the perception of fraud. There are 
some circumstances in which a photo ID would assist. A couple 
of people talked about the situation where someone shows up at 
polling place and discovers someone else voted or someone else 
may have been checked off the list as voting. I had a friend of 
my wife called a year ago and said, ``I went to vote and they 
said I already voted and I had not voted.'' She was persistent 
and she managed to convince the poll worker to let her vote 
which was the correct way. I did subsequently talk to some 
election officials and this happens actually more often than 
you might expect.
    Whether it is intentional--it's probably not intentionally 
very often--but the fact that it occurs is an indication where 
a photo ID would assist.
    I think the greater impact of the photo ID would be the 
confidence that it would inspire in every person who 
participates in elections. If I know that I have to have a 
photo ID and the next person next in line and the next, I think 
that inspires confidence.
    I think it does have widespread support. There used to be a 
law in Wisconsin--it doesn't exist anymore--but in these 
communities that were small enough to have polling lists, they 
didn't have registration lists. You showed up. There was no 
list, you said, `` I am Don Millis. This is my street 
address.''
    In those municipalities, the poll worker had the ability to 
demand any person to present an ID with no objective criteria. 
You could have a situation where the person just thought you 
didn't look like you belonged here.
    I don't know how often it occurred. If people were 
discriminated against, it would certainly be inexcusable.
    I can tell you one thing, I don't think we had any 
complaints during my time on the Elections Board about that and 
I think the reason is that generally poll workers try to do the 
best job they can and are not interested in depressing the 
vote. I think the idea of having to present an ID is something 
that people understand and are willing to do it. And I think 
the fact we have got wide acceptance of this indicates that I 
think we are ready to take that step. Thank you for the 
opportunity to testify.
    [The statement of Mr. Millis follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Ney. Thank you so much. I will give my slot to Mr. 
Ehlers since he has to leave.
    Mr. Ehlers. Thank you. I have to catch a plane because I 
have to give a speech back home which was scheduled before 
this. I appreciate the opportunity for this wrap up comment.
    I don't have any specific questions for any of you. As I 
said before I am surprised to the extent the photo ID has been 
the center of the discussion, apparently not only here but in 
Wisconsin. I don't regard that as the most overwhelming problem 
in elections.
    I also want to comment, I have been involved in holding 
hearings on elections in several places in the country from the 
West Coast to California to the East Coast of North Carolina 
and points between.
    Wisconsin had never been on my list of any area that had 
serious voting problems. I think by and large it is a good 
system and run well. I have been fairly critical in some of my 
comments here, but don't take that personally. My hobby is to 
try to make sure all governments operate smoothly, I hate to 
see things go wrong, and I have a great deal of respect for the 
government in this country and I want it to work well.
    I really appreciate the comments that you have made and the 
other witnesses have made. It has given us a good handle on it, 
and I think you are well on the way to solving these problems.
    The one thing that really surprises me is the reasons given 
against the voter ID and I am especially surprised, Ms. 
Kaminski, that the League of Women Voters has bought into that. 
Most of those I have not heard before. I have never seen any 
substantiation of the charge that somehow a voter ID will 
discourage people from voting. I think it has been on the 
contrary as Ms. James has mentioned. It has been a positive 
influence on people and their knowledge that they have a 
definite ability to vote.
    Now, if they show up, they wouldn't have an example such as 
Mr. Millis mentioned, you have already voted, voter ID would 
stop that. I think it would certainly be a much better thing 
over all, and I think people would be proud to have it.
    It should not cost anything, I agree with that, and as I 
said, my system which I proposed just off my head here, we have 
all of these electronic systems now, it would not be hard to 
have one person at each polling place doing the voter IDs right 
there.
    And there are machines now that print it right out, hand it 
to them, they walk out after having voted having their own 
personal voter ID, and I don't think that in any way is 
intimidating and it shouldn't be.
    Furthermore, if you do it in the voting place, you are 
likely to have an accurate record of the address as well and 
that gets away from the postcards, that gets out of being 
illegible. All done electronically. Good picture. Accurate 
address. What more can you ask for.
    I don't think it will intimidate anyone or prevent them 
from voting.
    In terms of those who don't have ready access to the 
polling place or vote absentee, that is another issue. I assure 
you that I could easily think of systems that would solve that 
as well and not at great cost either.
    I think you ought to take voter ID issues off the table and 
concentrate on the clean up of the administrative problems that 
occurred here, and also if there are problems of intimidation.
    I sympathize with that because I heard reports of that in 
different cities, both sides of the aisle, intimidation is 
used, and certainly inappropriate in a polling place and there 
should be clear rules established as to what behavior is 
acceptable and what is not.
    I want to thank you for your hospitality. Milwaukee is a 
wonderful place, I enjoyed it very much. Wisconsin is a great 
place. After all they host the Oshkosh Air Venture every 
summer, and since I used to be a pilot and aspire to getting 
back into it if I ever retire, that's another asset here.
    I can't say much for the beer because I don't drink beer, 
but it is a wonderful state and I have many fond memories of 
being here a number of ways.
    Keep it the way it is, keep it clean, correct the problems 
you had last time, and maybe you will go off everyone's radar 
immediately in terms of any discussions of voter fraud.
    Thank you very much for your hospitality and what you are 
doing.
    Mr. Ney. Thank you. Ms. Moore.
    Ms. Moore. Well, thank you so much Mr. Chairman, and again, 
this has been another distinguished panel, and I really 
appreciated the time that you have all taken to come here 
today.
    I am going to just make a statement and perhaps someone 
will want to respond. One of the--the real confusions I think 
that comes up with this whole voter ID thing is that people 
continue to say I don't understand why people are not middle 
class.
    Why don't they have--they need a photo ID to drive, they 
need a photo ID to ride an airplane, they need a photo ID to 
open a bank account, they need it to enroll in school to take a 
SAT, they need a photo ID to get cough syrup, and what the 
difference is in the ability to vote and the ability to take 
the SAT is that unfortunately education is not a constitutional 
right. It ought to be. Getting cough syrup ought to be a 
constitutional right, and it is not.
    We have a right to vote, so that means if you are too poor 
to have a car, guess what, you can still vote.
    If you don't have two hours to sit up in the DMV to get a 
voter ID, you have a right to vote. Even if you can't fly on an 
airplane to Naples, Florida, you have a right to vote.
    And even though you don't have a right to food stamps where 
you might need a photograph ID, you have a right to vote.
    You don't have a right to go to Blockbusters to get a 
video, but you have a right to vote. And the normative 
assumption that you ought to be middle class, why aren't people 
just middle class.
    My granddaughter has a birthday tomorrow, and I gave my 
daughter some money to open up a bank account and they wouldn't 
do it. She had a photo ID, but she didn't have a credit card. 
She just wasn't middle class enough to be able to do that.
    So poor people move often, poor people don't, and I am 
telling you that we have data that part of the record I want 
everyone to really look at it, there is a very clear 
correlation between having a photo ID and being middle class, 
and that requirement would really, really, really, put a damp 
on people's rights to vote.
    I do appreciate Mr. Erlanger to come all the way from 
Madison, Wisconsin to give testimony and being an ally. He said 
why would you exempt disabled people who have tremendous 
challenges to be able to get the right to vote and those are 
just one source of challenges because you got the same 
challenge if you are elderly and you have not driven, you have 
the same challenge if you in fact are poor and you don't have a 
car or if you have some other disability that is not 
necessarily a physical disability, but you are on great numbers 
of medication or whatever where you don't drive.
    Clearly in the United States we have at least 50 million 
people who don't vote, and I am really proud to be from 
Wisconsin, Congressman Ney, a state that values voter 
participation. We have the second highest turnout in the 
nation, and we ought to be looking to be examples of and models 
of how to increase the enfranchisement of people; not only in 
this country but as we export democracy to other countries as 
well instead of focussing on ways to frustrate the vote.
    The questions I guess I have of this panel again relate to 
what--what you regard as the greatest impediment to voting.
    We have heard today about the numbers of errors, we have 
heard about fraudulent behavior, and I guess--I guess I want to 
refer to what just happened in Georgia where there is an 
injunction against enforcing the voter ID requirement because 
they have said that this violates the 24th amendment to the 
constitution.
    I want each one of you all to just quickly respond to those 
findings.
    Ms. Coles James. First of all, I could not agree with you 
more, there should not be a disparity between poor people and 
middle class people where middle class people can move about 
the society because they do have ID, and I think ID ought to be 
provided to poor people as well and that is why they ought to 
remove all barriers to their ability to have that kind of 
identification, and that's why this commission said it ought to 
be free.
    And as a matter of fact, we charged the states to go out 
and identify the people who do not have ID and see to it that 
they get it, so that no person in America needs to feel like a 
second class citizen because they don't have access to ID. 
That's one thing.
    And I--I really believe that having come at this from a 
various--the Commission having come at it from various 
different positions and aisles, we all agreed on one thing and 
that is we wanted to protect the integrity of the process and 
to build confidence in the system.
    And I believe that voter ID has such strong widespread 
support it passes the straight face test because quite frankly 
it is not unreasonable of people to say if you present yourself 
at the polling place, it is reasonable to assume that the 
person standing there is in fact the person that is--that is on 
the list.
    And so requiring a voter ID seems to make sense to most 
Americans, and I believe it is--it is wrong, it is patently 
wrong that poor people, minorities, and other individuals who 
might not have access to ID feel like they are second class 
citizens, so we should do everything in our power to provide 
that to them and accommodate them in that process.
    Ms. Moore. I really actually thank you for raising the 
other point that I had forgotten to raise in your last 
statement, and that is not only should poor people not be 
disenfranchised in that way, you say that the--it will be free, 
that the card should be free, but we--we really don't know how 
we would get these--get these cards to everyone.
    Ms. Coles James. Well, there are ways to do that.
    Quite frankly, one of the reasons some of us support it the 
recommendation by the Commission is because we had serious 
problems with how it was being applied in an un-uniform way 
across America and had some concerns about how some states were 
implementing this.
    If in fact, as you said earlier, someone was going to be 
charged for a birth certificate and so it was sort of a hidden 
poll tax, there are ways that you can as a state make the 
determination that if someone is in fact trying to get a--a 
voter ID that they should not have to pay for that.
    Ms. Moore. Would you do that at the expense of our state, 
same day registration. We had 77,000 people register on 
election day. We are really proud of that, and it seems to me a 
requirement for a photo ID just deliberately or inadvertently 
ends same day registration, and it does frustrate the ability 
of people to participate when you have an advance requirement 
because you want the photo ID to mean something so--do you not 
agree with same day registration.
    Ms. Coles James. I think you are proud as well you should 
be and with technology as it exists today, that need not be a 
barrier.
    Ms. Moore. I have got a son, for example, whose birthday is 
November 6th, he did not run into the problem November 6th is 
real close and sometimes falls on the first Tuesday.
    What would happen if my son had turned 18 on a presidential 
election day and didn't have a voter ID card.
    Right now our law allows me as his parent to vouch for him 
and say he is in fact 18 years old even though he doesn't have 
a driver's license, and so I guess my concerns around voter ID 
is all of the preparation and middle classness that it really 
takes to have any kind of voter ID.
    You can't have done what poor people do and that's move 
four times a year. If this were a different hearing, would 
Milwaukee Public Schools here, they would tell you that the 
biggest problem that they have is the mobility of the students 
because they move four times during that year.
    So I--I really do want Chairman Ney to understand when we 
talk about imposing a photo ID requirement, we really are 
talking about a class issue, and I do thank you for that 
testimony.
    And I don't know what the indulgence of the chair is going 
to be because I did invite other people to respond to 
Georgia's----
    Mr. Millis. With the indulgence----
    Ms. Moore. Yes.
    Mr. Ney. I have to add a caveat. If your son turned 18 and 
wasn't able to register that day, and the democratic candidate 
lost by one vote for the presidency, it would be tough.
    Ms. Moore. I will tell you, my son hounded me the day he 
turned 18 to go register to vote so we did not have that 
problem.
    Mr. Millis. My first driver's license photo was taken in a 
classroom in my high school. Back then in those days, this is 
decades before sad to say before digital photography, but 
that's how they did it back then: The driver ed class came in. 
There is no reason today, as Congressman mentioned, why in the 
underserved areas, where we have lots of folks who don't have 
photo IDs, that the Department of Transportation in Wisconsin 
which is under the legislation that has been pending here, they 
should go into communities, set it up, bring the camera, very 
portable, print them out right there.
    Ms. Moore. That's what they did in Georgia and there is an 
injunction against them, the guy in the mobile home, what if he 
doesn't get to my rural setting? What if I am not at home when 
the mobile van comes through? You know----
    Ms. Coles James. Georgia had a lot of other issues.
    Ms. Moore. Yes, including trying to suppress the vote of 
people of color and there is no question of the requirement of 
a state issue ID will have an impact on minorities. Whether 
that is the intent or not, that would be the effect. It 
disenfranchises the people of color.
    And if you are not home when that motor voter truck comes 
to your home, you won't get your ID, and it will eliminate same 
day registration.
    Mr. O'Neill. Very quickly with the Chair's indulgence, you 
asked the question what the greatest barrier to voting is. 
Currently in the City of Milwaukee it is the amount of time it 
takes to vote in a presidential election because of the 
overwhelming turnout and understaffed polling places.
    The greatest asset conversely I believe is same day 
registration. I think that is the principle of Wisconsin's 
steadfast right to protect as broadly as it can the right to 
exercise the constitutional right to vote. You asked also about 
the Georgia decision. I read that decision. It is very long and 
exhaustive and goes over a bunch of evidence.
    I think it is correctly reasoned and it comes down with two 
particular conclusions. The first is that it violates the right 
to vote because it places a barrier to voting that is not 
justified by what the state put forth as the need for voter ID. 
And I think one of the things everyone has to step back because 
everybody likes to yell fraud, really we have not gotten to a 
point, certainly not in Wisconsin, where there is a kind of 
overwhelming amount of evidence of a need for this kind of what 
anybody even in the report of the Commission, the Carter-Baker 
Commission acknowledges will place a barrier to some people 
exercising the right to vote.
    So I don't think there is evidence to support voter ID.
    The second thing that that judge found that it is the 
equivalent of a poll tax. Regardless whether you say it is 
free, Georgia had a very strange affidavit requirement of 
indigency where they invited people to lie, but there is a 
constitution--24th amendment of the constitution says there 
shall not be a poll tax directly or indirectly and what the 
judge found was in order for someone to take the steps to get a 
license or a state ID who didn't have one, it would cost them 
money, and that was equivalent of a poll tax, and I think that 
is a correctly decided decision.
    Mr. Erlanger. I would like to make a comment. Back to the 
question what is the biggest barrier being that I ran in a 
student district, I would say the biggest barrier is the lines. 
There is no reason it should need to take forever.
    I know in 1992 where I voted, it--the lines were two hours 
long. I got to cut halfway through because of the elevator I 
needed to take, took me halfway through the line, I was able to 
go by half as quickly as everyone else, but I think the lines 
are the biggest barrier.
    I think that it would be really horrible if we had to get 
rid of the same day recommendation. Out of the people who voted 
in the city council election I ran in, I would say probably a 
large majority maybe 90 percent of them were same day 
registrants.
    It was a student district, and they didn't know. They 
thought they lived--since they were from Illinois that they 
were not allowed to vote in Wisconsin, and it took all through 
the election to convince--to get people to understand they were 
allowed to vote in Madison.
    The other barrier I would say is not everyone's voting 
place is right near them. Mine is across the street. Some 
people's are farther away. While Madison has a great pair of 
transit system and one of the only demand response taxi cabs in 
the country, most people--most cities don't have that kind of 
situation, and for someone with--a person with disability to 
get to the voting place is very difficult.
    If you are going to have voter IDs, the only way to do it 
would be to take the picture in my view take the picture at the 
polling place and a computer that could check your address, and 
that would be a problem for poor people so I don't think it is 
possible to do it.
    Ms. Kaminski. With the Chair's indulgence, I would like to 
respond to something Congressman Ehlers said earlier.
    Mr. Ney. Yes.
    Ms. Kaminski. I want to say actually the Georgia League of 
Women Voters was very active in opposing the voter ID law and 
was one of the organizations that sued.
    If voter ID is to be a proof of address, then it is a 
problem for people who move often. My daughter is white, she is 
middle class, but she is 21 and she moves often, and that's a 
problem for many of us.
    I agree that voter ID is really not the biggest problem 
here. It has been an emotional issue, but frankly we at the 
League wish it had died a couple of years ago the first time 
the governor vetoed it.
    The real problem is election management and the League of 
Women Voters believe we need to professionalize management with 
uniform standards, training to those standards, and 
accountability. We believe that there should be a service focus 
and that will deal with some of the other problems on election 
day. Voting should be convenient, efficient, and accessible.
    Mr. Ney. We are getting into statements. If you want to 
answer the question, we can still go over your statements, 
there are answers to her----
    Ms. Moore. Yes, as it relates to the Georgia law and 
particularly given the Georgia injunction, how do you see 
problems surfacing were we to implement photo ID.
    Ms. Kaminski. How do I see problems with regard to 
implementing.
    Ms. Moore. Continue saying--I am asking you what you are 
talking about.
    Mr. Ney. Otherwise people would ask for statements not 
discussed.
    Ms. Kaminski. We believe that voter ID is not proof of 
address and it is a problem for those who move often and it is 
a problem for many people. The real problem with elections is 
with management. We believe we need to have more professional 
uniform standards and then funding to support their 
implementation. Thank you.
    Mr. Ney. Let me just ask a couple of questions and then 
wrap it up unless she has other questions.
    I want to ask a question of Ms. Coles James. I was a bit 
surprised when I saw the recommendation out of Carter-Baker on 
some areas and not on others.
    With the Ford-Carter Commission, I think one of the thrills 
of my lifetime, I had back to back phone calls with President 
Carter and President Ford after we passed HAVA and the Ford-
Carter Commission was huge, monumental in helping with HAVA to 
create that piece of legislation, and some things they 
recommended we took and some we didn't.
    It was a little easier with some of the recommendations, as 
we were embarking on a brand new area, the first federal 
involvement in elections without federalizing.
    And of course I served with Lee Hamilton--I don't think you 
could find a fairer person--and Andrew Young. Looking at the 
controversy about the photo ID coming out of Carter-Baker, was 
there concern or were there discussions during the whole 
deliberations to create the final report about the 
disenfranchisement of individuals and particular minorities.
    Ms. Coles James. Yes, there was a great deal of discussion 
about that both in formal discussions during the Commission as 
well as informal discussions outside of the actual formal 
deliberations.
    And I think one thing needs to be said for clarification. 
We tend to talk about photo ID as though there is one way to do 
it, and I think we need to clarify that.
    There are many who supported the recommendation of the 
Carter-Baker Commission because they didn't like the way it was 
being done in Georgia, so you can't--you can't line up the 
Carter-Baker recommendation with Georgia and say they are the 
same, therefore, all recommendations for photo ID are bad. It 
requires a little bit more thought than that.
    And so I think that point needs to be made. The discussions 
about disenfranchisement were very thoughtful and very 
deliberative, and the individuals who ended up voting in favor 
of this particular recommendation did so because they were 
convinced that with proper safeguards and those that you will 
see discussed in the full commission report in place that it 
would not--it would result in minorities or poor people being 
disenfranchised, but you have to--you have to take the full 
piece which says that they--we should make every effort to make 
sure that states do not have any kind of overt or covert poll 
tax, to make sure that it is accessible, to make sure that 
states actually go out and in an aggressive way try to identify 
individuals who don't have ID and see to it that it does get 
into their hands.
    We are not talking about a van that you may miss because it 
doesn't come to your neighborhood. We are talking about opening 
up lots of places around a state where someone would have 
access to get this done. Quite frankly the way they are doing 
in it in Georgia where they have multiple counties and very few 
opportunities to have a picture taken is in my opinion not the 
way to get it done.
    So we had those discussions, we talked about it, and at the 
end of the day, the overwhelming majority of the commissioners 
felt that to build confidence in U.S. Election, to have 
American people feel good at the end of the day about the 
process, that it is not unreasonable to say that the person 
presenting themselves at the polling place in fact is the 
person whose name is on that registration list.
    Mr. Ney. Thank you. I just have one comment, Mr. Erlanger. 
One--one of the problems you have got and I am not saying same 
day registration is bad or good or wrong or right.
    I'm not stating a position on this, but if you have same 
day registration you come up with the surprise factor. Same day 
registration last election yielded 70,000 or 76,000 new people. 
Maybe next election 20,000, who knows? I think some of the 
reasons you would have long lines is because you don't have the 
ability to anticipate how many people are registered prior to 
election.
    I think the long lines are going to have to be addressed 
whether you have the same data or not. It was an issue in Ohio; 
we had an unusual type of election. I think inherently you are 
going to have a lot of local pressure. If you have long lines, 
they are going to call their Mayor, Congressman, and a lot of 
people and start to yell about those long lines.
    I know it happened in Columbus, Ohio--we had longer lines 
than where I live in the eastern part of the state.
    Mr. Erlanger. I think it is a barrier. I don't think there 
is necessarily something that can be done. It is a barrier.
    Mr. Ney. Yes.
    Mr. Erlanger. You have to admit it is a barrier and there 
might be things that can be done creative things, but I think 
that is up to--that may be something the federal government can 
do. I don't know. It is a barrier.
    Mr. Ney. I think the locals probably will after one of the 
highest voter turnouts in the history of the country. 
Interesting, on another note I wanted to ask Mr. O'Neill--on 
the intimidation factor--you said people were standing behind 
the pollworkers during the vote.
    Mr. O'Neill. Correct. The way voting happens if you are 
registered----
    Mr. Ney. In the state of Ohio, you can't stand behind.
    Mr. O'Neill. We have open observation rules that don't 
specify--they allow observers to stand close enough that they 
can see and hear what happens at the table, both the 
registration table and the table where the poll lists are. That 
is what the law is.
    Mr. Ney. Observers.
    Mr. O'Neill. Stationed directly behind. Sometimes the 
election officials told them to move it over to the side. 
Sometimes they didn't.
    But we got a lot of reports that's exactly where they were 
stationing themselves earlier in the day.
    Mr. Ney. We have observers too; maybe you do it differently 
here.
    In our state I have my original congressional district that 
I served before we recarved four years ago. It has an 11 
percent Republican index. More Republicans, 11 percent had a 
very, very historically Democratic district.
    When I first ran in 1994, I had a primary on the Republican 
side. I am a Republican, and I had a primary and a lot of 
people became alarmed because we were taking 69 percent of 
union households. I had been a state senator, but some people 
within the democratic party became so alarmed because I got 
into a primary that democrats would switch in mass my home 
county. I took it from 11 percent to 13 percent. I'm bragging 
about one election where it went up--but there were things 
going on where people walk up to the poll and say, ``I would 
like a Republican ballot,'' and someone would immediately want 
to challenge that. You can challenge in Ohio.
    I don't think those things should be done. I don't know if 
we can correct that federally which comes to your point.
    We are trying to look at how HAVA is being implemented and 
whether we can correct it. I complained in my own state. I 
don't think you should say you want a Democratic or Republican 
ballot. Maybe you should say who you voted for in the last 
election.
    Those are factors that are here and there. Why Ohio does 
that, I don't know. If you want a democrat or republican 
ballot, it should be given to you without having to say whether 
or not you voted for that party in the last election? It makes 
people nervous, I have seen it in a different way in my 
elections.
    Mr. O'Neill. We are an open primary state. You can pick 
whichever party you want to vote for. It is a single ballot 
vote, you can't only vote for one party so we do have open 
challenge procedures.
    Mr. Ney. We are open. You can walk in and you can be a 
democrat in one election, and you can change in the primary, 
but you are allowed to be questioned. Your switch is allowed to 
be questioned at the local level, and I don't know if we should 
cure that, and some of the things you address, at the federal 
level, I don't know if we should cure it federally or if people 
should have to move out behind a point of flags.
    I think it is something to look at.
    Mr. O'Neill. I don't know that there is a federal solution. 
I wanted to bring it to the attention----
    Mr. Ney. We appreciate that and down the road we will look 
at doing some things at the federal level.
    I am going to close with a couple of questions. I wanted to 
ask Ms. Kaminski--when you question why we came here--we came 
here because we have been to Ohio and we will go to other 
states. Mr. Green wanted us to come here.
    He has a bill pending in the Committee I chair, which we 
have not made a decision on as a committee. But it is worth its 
ID and now it has been discussed by Baker-Carter, so we came 
here to listen, and, as you know, we have come here as an 
investigatory body, but we did come here to listen. I think the 
more flavor we get from Members and states that experienced 
controversy benefits us.
    A reporter said we just created a great bill on persons 
that have disability issues and asked why it wasn't reported. 
He said we don't report when the plane lands, we report when it 
crashes. So in states that have had controversy, that's why we 
went to Ohio and talk about going to Florida. That's why we 
have come here.
    I do have a question to ask you. The League has expressed 
its concern about the voting practices in Ohio and our League 
of Women's Voters filed a lawsuit after the election due to the 
controversy of the election.
    Did the League of Women's Voters ever consider filing a 
lawsuit here in Wisconsin? Your counterparts did in Ohio.
    Ms. Kaminski. No. Our legislative committee and our board 
have not discussed that. That has not been a question for us.
    Mr. Ney. Why do you think they filed in Ohio? Did you ever 
hear.
    Ms. Kaminski. I honestly can't answer the question. I would 
have to find out from the Ohio League and then I could send 
that to your office.
    Mr. Ney. I was curious. I don't know if it mattered who won 
or lost the election or whether the lawsuit----
    Ms. Kaminski. No.
    Mr. Ney. I should not ask the trick question, have you ever 
disagreed with the Democratic party on election reform.
    Ms. Kaminski. Yes we have.
    Mr. Ney. That was a trick question. I told you in advance 
it was a trick question. In Ohio we had a lot of controversy 
and there was a lawsuit that was filed due to the nature of the 
election which was not as close as Wisconsin.
    I appreciate all of your comments and your thoughts today.
    I want to thank my colleague, general lady, down there 
working with issues, the other members, and Mr. Green for 
inviting us.
    This is something that is worth it and very healthy for the 
process and something we can take back to Washington.
    And on behalf of our Ranking Member, the great gentle lady 
from California, I want to thank all of you for being here 
today with us.
    I ask unanimous consent that members and witnesses have 
seven legislative days to submit materials for the record and 
for the statements and materials to be entered in the 
appropriate place in the record. Without objection, the 
material will be entered.
    I ask unanimous consent that staff be authorized to make 
technical and conforming changes on all matters considered by 
the Committee at today's hearing.
    Without objection, so ordered. That will complete our 
business for today. The hearing committee is hereby adjourned. 
We appreciate the hospitality and friendliness of Milwaukee. 
Thank you.
    [Whereupon, the committee was adjourned.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



</pre></body></html>
